<html>
<title> - RELIGIOUS LIBERTY AND H.R. 2802, THE FIRST AMENDMENT DEFENSE ACT (FADA)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
RELIGIOUS LIBERTY AND H.R. 2802, THE FIRST AMENDMENT DEFENSE ACT (FADA)

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2016

                               __________

                           Serial No. 114-121

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                      
                      
                             ________

                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-645 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                     
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
  Katie Bailey, Staff Director, Subcommittee on Government Operations
                           Willie Marx, Clerk
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 12, 2016....................................     1

                               WITNESSES

Hon. Mike Lee, U.S. Senator from the State of Utah
    Oral Statement...............................................     5
Hon. Raul Labrador, U.S. Representative from the State of Idaho
    Oral Statement...............................................     8
Mr. Barney Frank, Former U.S. Congressman, Massachusetts Fourth 
  Congressional District
    Oral Statement...............................................    11
    Written Statement............................................    14
Mr. Kelvin Cochran, Former Fire Chief, Atlanta Fire Department
    Oral Statement...............................................    18
    Written Statement............................................    21
Mr. Jim Obergefell, Appearing in Personal Capacity
    Oral Statement...............................................    26
    Written Statement............................................    28
Ms. Kristen Waggoner, Senior Counsel and Senior Vice President, 
  U.S. Legal Advocacy, Alliance Defending Freedom
    Oral Statement...............................................    31
    Written Statement............................................    33
Ms. Katherine Franke, Isidor and Seville Sulzbacher Professor of 
  Law, and Director, Center for Gender and Sexuality Law, 
  Columbia School of Law
    Oral Statement...............................................    43
    Written Statement............................................    44
Mr. Matthew J. Franck, Appearing in Personal Capacity
    Oral Statement...............................................    63
    Written Statement............................................    67

                                APPENDIX

United States District Court for the Southern District of 
  Mississippi Northern Division Opinion on the case: Rims Barber; 
  Carol Burnett; Joan Bailey; Katherine Elizabeth Day; Anthony 
  Laine Boyette; Don Fortenberry; Susan Glisson; Derrick Johnson; 
  Dorothy C. Triplett; Renick Taylor; Bandilyne Mangum-Dear; 
  Susan Mangum; Joshua Generation Metropolitan Community Church; 
  Campaign for Southern Equality; and Susan Hrostowski V. Phil 
  Bryant, Governor; Jim Hood, Attorney General; John Dais, 
  Executive Director of the Mississippi Department of Human 
  Services; and Judy Moulder, State Registrar of Vital Records, 
  Entered by Ranking Member Cummings.............................   116
Written Statement of David Stacy, Government Affairs Director, 
  Human Rights Campaign, Entered by Ranking Member Cummings......   149
A letter from 50 Organizations titled, ``Cancel July 12 Hearing 
  on Discriminatory Anti-LGBT Bill'', Entered by Ranking Member 
  Cummings.......................................................   155
 A letter from Stosh Cotler, CEO, Bend the Arc Jewish Action, to 
  Chairman Chaffetz and Ranking Member Cummings, Entered by 
  Ranking Member Cummings........................................   158
A letter from David Stacy, Government Affairs Director, Human 
  Rights Campaign, to Chairman Chaffetz and Ranking Member 
  Cummings.......................................................   159
 Written Statement from Carmel Martin, Executive Vice President, 
  Policy, Center for American Progress...........................   185
Letter from Karin Johnson, Director, Washington Legislative 
  Office, and Ian Thomson, Legislative Representative at the 
  American Civil Liberties Union to Chairman Chaffetz and Ranking 
  Member Cummings................................................   191
National LGBTQ Task Force Action Fund Testimony Regarding the 
  First Amendment Defense Act from Candace Bond-Theriault, ESQ, 
  LL.M., Policy Counsel, Reproductive Rights, National LGBTQ Task 
  Force, Entered by Ranking Member Cummings......................   195
Testimony of Maggie Garrett, Legislative Director of Americans 
  United for Separation of Church and State, Entered by Ranking 
  Member Cummings................................................   203
Statement of the National Center for Lesbian Rights, Entered by 
  Ranking Member Cummings........................................   209
Letter from Gregory T. Angelo, President of Log Cabin 
  Republicans, to Chairman Chaffetz and Ranking Member Cummings, 
  Entered by Ranking Member Cummings.............................   213
Letter from Emily J. Martin, Vice President of Workplace Justice 
  & Health, at the National Women's Law Center, to Chairman 
  Chaffetz and Ranking Member Cummings, Entered by Ranking Member 
  Cummings.......................................................   214
A letter from Representative Barry Loudermilk, Representative 
  Lynn Westmoreland, Representative Tom Price, Representative 
  Austin Scott, and Representative Jody Hice to Kasim Reed, Mayor 
  of Atlanta, Entered by Representative Jody Hice................   216
H.R. 2802 Bill Text, Entered by Chairman Chaffetz................   218


RELIGIOUS LIBERTY AND H.R. 2802, THE FIRST AMENDMENT DEFENSE ACT (FADA)

                              ----------                              


                         Tuesday, July 12, 2016

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Duncan, Jordan, Walberg, 
Amash, Gosar, DesJarlais, Farenthold, Lummis, Massie, Meadows, 
Mulvaney, Buck, Walker, Blum, Hice, Russell, Carter, Grothman, 
Hurd, Palmer, Cummings, Maloney, Norton, Lynch, Connolly, 
Cartwright, Duckworth, Kelly, Lawrence, Lieu, Watson Coleman, 
Plaskett, and Lujan Grisham.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. And without objection, 
the chair is authorized to declare a recess at any time.
    I thank you all for being here. This is an important topic. 
It is an important subject. I know we don't necessarily all 
agree and see it the same way. But that is why we have vibrant 
discussion. That is what we do in this country is we talk about 
it in a professional way, in a civil way, and we have this 
discussion.
    And so I want to thank the witnesses. We have done 
something that is unprecedented, and a number of witnesses that 
the Democrats have asked for are all here. We have a rather 
large and distinguished panel. We are going to have a good and 
vibrant discussion.
    I did notice when we came in that there were a number of--
at least a few signs and whatnot. We are responsible to keep 
the rules and decorum. If you want to show off those signs and 
wave them and do all you want, you can do that right now, but 
as we get going during the hearing, I would ask that you please 
refrain from doing so. It is part of the way we have a good, 
fair discussion on these issues. So if you have those signs, 
you are free to show them right now, wave them all you want, 
but to do so during the hearing while somebody is speaking is 
not the level of respect that we would ask from everybody on 
both sides of this important issue.
    So protecting the sacred right to freely exercise your 
religion is the First Amendment to the Constitution for a 
reason. It has been and still is a fundamental part of the 
foundation of our nation.
    The First Amendment Defense Act, or FADA, has some very 
important goals. Legislation is intended to ensure the tax-
exempt status of religious institutions is not unfairly 
threatened. This was an issue acknowledged by the solicitor 
general during arguments before the Supreme Court. When asked 
by Justice Alito whether a religious institution could lose its 
tax-exempt status if it opposed same-sex marriage, the 
solicitor general responded, ``I don't think I can answer that 
question without knowing more specifics, but it is certainly 
going to be an issue. I don't deny that, Justice Alito, it is 
going to be an issue.''
    And I do believe that this is an issue that needs to be 
addressed. FADA attempts to ensure that no one is discriminated 
against based on how they view marriage. I am an original 
cosponsor of this piece of legislation. There have been some 
updates to this legislation. So if you are looking at the older 
piece of legislation, I would highly encourage you as swiftly 
as you can to go online at Raul Labrador, who is testifying who 
is the House sponsor of this bill has posted this online. And I 
would encourage anybody who is in the listening audience to 
look at that most recent version of this important bill.
    I recognize the sensitive nature of this, the emotion that 
is attached to it, but I hope that today doesn't divide into 
too much of a politically charged discussion about what divides 
us. But it is important for me and my vantage point, just 
because you are for one thing doesn't mean you are against 
another thing, and that is an important distinction.
    It is also important to me that we have the right to freely 
exercise religion. Religion is part of the foundation of this 
nation. Religion is part of what so many Americans believe in. 
But it is their choice to believe in it. It does not mean I 
want to hurt or strip somebody else of their rights, their 
pursuit of happiness.
    As Members of Congress, we have a responsibility to engage 
in a way that is consistent with what the First Amendment 
teaches us, to be open-minded and respectful of all Americans' 
experiences and beliefs, especially when they disagree. And 
today we have that opportunity to have this vibrant discussion 
and lead by example.
    Chairman Chaffetz. We are fortunate to have the two 
sponsors of FADA that are here. Senator Lee is the Senate 
sponsor, a colleague of mine from the great State of Utah. We 
also have Representative Raul Labrador, who is the House 
sponsor, who is here to share some things.
    It is consistent with House practice we typically in the 
past have allowed House and Senate Members to come present on a 
separate panel and then, given the pressures and the few days 
that we have remaining before the recess period here, we 
typically will excuse them so that they can continue on with 
their duties and responsibilities. Given the second day here, 
we have a lot of hearings and a lot of other business 
happening, so we are going to ask them that they give their 
opening statements. Then we will excuse them, but we will 
continue with the rest of the panel for their opening 
statements and their questions along the way.
    It is an important discussion. I am glad we are having it. 
I appreciate them introducing this bill. I now recognize the 
ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Chairman, today is a terribly sad day for the LGBT 
community and for all of America. Today is the 1-month 
anniversary of the deadly shooting spree at the Pulse nightclub 
in Orlando, Florida, that killed 49 people and injured dozens 
of others, 1 month ago.
    Throughout the day today there will be commemorations 
across the country. In fact, Members of Congress are holding a 
vigil this evening on the steps of the United States Capitol. 
With everything going on in this country right now, these 
horrific shootings of gay people, black people, police 
officers, what we should be doing is coming together as a 
nation, not tearing each other apart, which is exactly what 
this bill does.
    As I sit here now, it is difficult to imagine a more 
inappropriate, a more inappropriate day to hold this hearing. 
Even if you truly believe that being gay is morally wrong or 
that people should be allowed to discriminate against gay 
people, why in the world would you choose today of all days to 
hold a hearing on this discriminatory legislation?
    To say that this hearing is politically tone-deaf is the 
understatement of the year. And I do not believe that the 
chairman did this intentionally. He may not have even realized 
before the week that today is the 1-month anniversary. But we 
asked repeatedly to cancel today's hearing or at least postpone 
it. And dozens of groups and other stakeholders made the same 
request in letter after letter after letter to the committee, 
all without success.
    Mr. Chairman, I ask unanimous consent to place into the 
record the letters and statements from 77 groups and 
organizations relating to today's hearing.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. It is actually 80, Mr. Chairman. We got three 
more.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. Thank you. I also ask unanimous consent to 
place into the record a letter opposing this legislation signed 
by more than 3,000 faith and clergy from across the country.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. At any rate, we are here now. For the record, 
I do want to thank the chairman for agreeing to our request to 
have three minority witnesses on the panel. I truly appreciate 
it. It is much more balanced, and I commend the chairman for 
agreeing to our request.
    We are honored to have with us today our former colleague 
and distinguished friend in the House of Representatives, 
Congressman Barney Frank.
    We are also very honored to have Jim Obergefell, the lead 
plaintiff in the Supreme Court's recent case legalizing same-
sex marriage. He has a very important and poignant story, and 
we thank him for being here today.
    Finally, our third witness is Katherine Franke, a 
nationally renowned legal expert and director of the Center for 
Gender and Sexuality Law at Columbia Law School. And I thank 
you as well.
    I would like to address my remaining comments to Senator 
Lee and Representative Labrador, the two Members of Congress 
who are here today sponsoring this legislation in the Senate 
and the House. I had hoped that we would have had the 
opportunity to ask you questions about why you believe your 
bill is a good idea, but now I understand that you will not be 
taking any questions from members of the committee. So I would 
like to ask just one question now so that you might address it 
in your opening statement.
    I am the son of two Pentecostal ministers, and I strongly 
believe that people have the right to freely express their 
religious beliefs. Senator Lee and Congressman Labrador, my 
question for you is simply this: What is the difference between 
discriminating against someone who is black and someone who is 
gay? For centuries in our nation a black person could not marry 
a white person. Those in power justified this doctrine on 
religious grounds, and they codified it in our laws. But in 
1967 the Supreme Court changed all that in the case of Loving 
v. Virginia. The Court held that this discrimination is 
unconstitutional.
    Now, we have a similar situation with same-sex couples. For 
centuries, gay people could not marry. This discrimination was 
also justified on religious grounds, and it was also codified 
in our statutes. But last year, nearly 50 years after the 
decision in Loving v. Virginia, the Supreme Court ruled that 
this discrimination is also unconstitutional. I acknowledge 
that this change is a major change, and this change is very 
difficult. But the paramount lesson we have learned over our 
nation's history is that if we are separate, we will never be 
equal. That is the lesson we should be reinforcing across our 
great country every single hour of every single day, especially 
now. And that is the lesson I hope our committee takes to heart 
today. And with that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman. I will hold the 
record open for 5 legislative days for any members who would 
like to submit a written statement.
    Let us now recognize our panel of witnesses. We are pleased 
to welcome the Honorable Mike Lee. He is a United States 
Senator from the State of Utah and author of the First 
Amendment Defense Act in the United States Senate.
    We also have the Honorable Raul Labrador. He is a United 
States Congressman from the First Congressional District of 
Idaho and the author of the First Amendment Defense Act in the 
House of Representatives.
    We are pleased to have the Honorable Barney Frank, former 
United States Congressman from the Fourth Congressional 
District of Massachusetts. I had the pleasure of serving with 
Mr. Frank while he was here. I overlapped a little bit, and 
pleased, sir, that you would join us here for this important 
discussion.
    We are going to go out of order here a little bit because 
we are going to have Mr. Hice--actually, why don't we recognize 
Mr. Hice to introduce Mr. Cochran at this point.
    Mr. Hice. Thank you, Mr. Chairman. It is a great honor that 
I have to introduce and welcome former fire chief of Atlanta 
Kelvin Cochran. Thank you for joining us today, sir, on this 
hearing on religious liberties.
    Chief Cochran served for roughly 34 years, an extremely 
decorated career. He was, for example, brought to New Orleans 
right after the Hurricane Katrina and the devastating effects 
there and did an outstanding job. He also held positions with 
the International Association of Fire Chiefs and was appointed 
by President Obama as a U.S. fire administrator between 2008 
and 2010. And, Chief Cochran, we have had the opportunity to 
serve and do different things for the last couple of years, and 
I just want to say, first of all, thank you for your service to 
our country. Thank you for your willingness to be here today, 
and it is a great honor to introduce former Atlanta Fire Chief 
Kelvin Cochran. Thank you.
    Chairman Chaffetz. I thank the gentleman. We thank Mr. 
Cochran for being here as well.
    We have Mr. John Obergefell, who is appearing in his 
personal capacity. He is a plaintiff in the landmark Supreme 
Court marriage equality case Obergefell v. Hodges and the 
coauthor of Love Wins. We thank you, sir, for being here as 
well.
    Ms. Kristen Waggoner, who is senior counsel and senior vice 
president of the United States Legal Advocacy at the Alliance 
Defending Freedom. In this role Ms. Waggoner oversees a team 
specializing in civil liberties legislation and education. And 
we appreciate you being here.
    Ms. Katherine Franke is the Isidor and Seville Sulzbacher 
professor of law and director of the Center of Gender and 
Sexuality Law at the Columbia School of Law and the faculty 
director of the Public Rights/Public Conscience Project. I hope 
I pronounced all of that properly. I was trying. But thank you, 
Ms. Franke, for being here with us as well.
    And we have Mr. Matthew Franck, a lot of Franks on the 
panel, but Mr. Matthew Franck, a Ph.D. who is appearing in his 
personal capacity. In his professional capacity, Mr. Franck is 
the director of the William E. and Carol G. Simon Center on 
Religion and the Constitution at the Witherspoon Institute at 
Princeton University. And so we thank you for being here as 
well.
    Pursuant to committee rules, all non-Members are to rise 
and raise their right hand. It is optional for Members of 
Congress in this portion of it, but we would ask that everybody 
on the panel please rise and raise your right hand.
    [Witnesses sworn.]
    Chairman Chaffetz. Thank you. You may be seated. Let the 
record reflect that the witnesses answered in the affirmative.
    We are now going to recognize each person for 5 minutes, 
again, with Senator Lee and Congressman Labrador, we thank you 
for being here. We will recognize you and then, please, you are 
excused to deal with the business of Congress. But we will 
start first with Senator Mike Lee.

 STATEMENT OF HON. MIKE LEE, A UNITED STATES SENATOR FROM THE 
                         STATE OF UTAH

    Senator Lee. Chairman Chaffetz, Ranking Member Cummings, 
and members of the Judiciary Committee, thank you for holding 
this hearing and thank you for giving me the opportunity to 
come and testify before this hearing in support of the First 
Amendment Defense Act. It's an honor to be here and to 
participate with my fellow witnesses on this important 
discussion.
    I'd like to preface my remarks today by issuing a challenge 
to all of those who were involved in this debate here on 
Capitol Hill and, for that matter, across the country, myself 
included. As we engage in dialogue with one another about this 
topic, this topic which happens to be highly charged, let's 
commit to treating one another with respect, with kindness, and 
with decency, as fellow citizens rather than as adversaries. 
Let's insist on hashing out our honest differences honestly. 
It's too easy to assume the worst in those with whom you 
disagree, to impugn their motives so you don't have to listen 
to their arguments. Let's be better than that today. We all 
came here to talk, but let's not forget to listen just because 
we're here to talk.
    And with that, I'm going to spend a few more minutes 
talking now.
    The most important feature of this legislation, which I was 
proud to introduce in the Senate, the First Amendment Defense 
Act, is its exceptionally narrow scope. If enacted, the bill 
would do one thing. It would do one thing only, just one thing. 
That is, it would prevent the Federal Government from 
discriminating against particular disfavored religious beliefs.
    There are other forms of discrimination in the world, for 
instance, the discrimination that may occur between two private 
parties, two people who are not the government. But these are 
entirely different issues, and those types of actions are 
completely unrelated to and unaffected by the First Amendment 
Defense Act. This bill deals exclusively with a particular but 
a rather pernicious form of discrimination, one in which the 
Federal Government could single out certain religious beliefs 
for disfavored treatment.
    The bill is so narrowly focused because it is a targeted 
response to particular legal developments that have taken place 
just in the last year or so. In the wake of last year's 
decision by the Supreme Court in the same-sex marriage case, 
Obergefell v. Hodges, many millions of Americans were left 
wondering: What does this mean for me? What does this mean for 
me personally and for my family, for how I live my life? There 
were many who wondered what the Court's decision might mean for 
countless institutions that play a significant role in our 
civil society, including churches and synagogues; charities and 
adoption agencies; counseling services and religiously 
affiliated schools, colleges, and universities that are made up 
of American citizens who believe marriage is the union between 
one man and one woman. For instance, now that the Supreme Court 
had discovered a constitutional right to same-sex marriage, 
would a school that holds the belief that marriage is the union 
of one man and one woman be in danger of losing its tax-exempt 
status? Would it be deemed no longer performing a charitable 
function simply because it had that religious belief?
    More than one year after the Supreme Court's ruling in the 
Obergefell case, these questions remain unanswered. On the one 
hand, the Court's majority opinion in the Obergefell case 
reiterated the meaning of religious liberty that has always 
been understood in America when it stated, ``The First 
Amendment ensures that religious organizations and persons are 
given proper protection as they seek to teach the principles 
that are so fulfilling and so central to their lives and 
faiths.''
    But on the other hand, there was the ominous exchange 
referred to by Chairman Chaffetz a few moments ago between 
Supreme Court Justice Samuel Alito and Solicitor General Donald 
Verrilli during oral arguments in that case that seemed to 
suggest that the Obama administration would be comfortable with 
the notion that the IRS could revoke the tax-exempt status of 
religious institutions, including schools, colleges, and 
universities, that maintain the traditional definition of 
marriage.
    The First Amendment Defense Act is a very narrow and very 
targeted legislative response to these questions, these still-
unanswered but nonetheless very important questions. The bill 
reaffirms the letter of the First Amendment. It also 
strengthens the spirit of the First Amendment. And it does so 
by stating unequivocally that the Federal Government may not 
revoke or deny the Federal tax exemption or any grant or 
contract, accreditation, license, or certification to any 
individual or to any institution based on a religious belief 
about marriage.
    The First Amendment protects each of us from punishment or 
reprisal from the Federal Government for living in accordance 
with our deeply held religious and moral convictions. Adhering 
to these convictions should never disqualify an individual from 
receiving Federal grants, contracts, or tax status. What an 
individual or an organization believes about marriage is not 
and never should be any of the government's business, and it 
certainly should never be part of the government's eligibility 
rubric in distributing licenses, awarding accreditations, or 
issuing grants.
    And the First Amendment Defense Act simply ensures that 
this will always be true in America, that Federal bureaucrats 
will never have the authority, the discretion to require those 
who believe in the traditional definition of marriage to choose 
between living in accordance with those beliefs on the one hand 
and on the other hand maintaining their occupation, their tax 
status, or their eligibility to receive and obtain grants, 
licenses, or contracts.
    The First Amendment Defense Act is absolutely critical to 
the many charitable and service organizations in this country 
whose convictions about marriage are fundamental to their work 
and to their mission. Guaranteeing the full protection of these 
organizations' First Amendment rights will ensure that faith-
based adoption agencies are not forced to discontinue their 
foster care and adoption services on account of their belief 
that every child needs a married mother and father. It will 
protect religiously affiliated schools, colleges, and 
universities from losing their accreditation or being compelled 
to eliminate housing options for students. And it will protect 
individuals, regardless of their beliefs about marriage, from 
being deprived of eligibility for Federal grants, licenses, and 
employment simply because of their deeply held convictions.
    Now, you may hear tall tales and in some cases perhaps 
outright falsehoods about this bill, about this legislation 
we're discussing today. Some may suggest that the First 
Amendment Defense Act, or FADA as we sometimes call it, would 
give private businesses a license to violate the 
antidiscrimination laws with impunity. This is just not so. It 
isn't true. The bill does not preempt, negate, or alter any 
antidiscrimination measures or civil rights laws, State or 
Federal. To be clear, this bill does not take anything away 
from any individual or any group because it does not modify any 
of our existing civil rights protections.
    The First Amendment Defense Act does not allow Federal 
workers or contractors to deny services or benefits to same-sex 
couples, and it does not allow hospitals to refuse medically 
necessary treatment or visitation rights to individuals in 
same-sex relationships.
    I invite everyone within the sound of my voice to read the 
bill so you can see in plain English, in black and white that 
the First Amendment Defense Act does not do any of these 
things. It simply affirms all Americans' God-given, 
constitutionally protected right to live according to their 
religious or moral convictions without fear of punishment by 
the government, especially when it comes to operating churches, 
schools, charities, or businesses.
    It recognizes that religious liberty in America has always 
meant that the government's job is not and can never be to tell 
people what to believe or how exactly to discharge their 
religious duties, but rather to protect the space for all 
people of all faiths and people of no faith at all to seek 
religious truth and to order their lives accordingly.
    Questions surrounding marriage today are difficult, and 
reasonable people of good faith will reach different judgments 
about how best we can protect religious liberty. But the First 
Amendment must remain our lodestar. And I believe any 
differences of opinion can be constructively worked out, even 
and especially as to particular provisions of this bill if our 
shared concern remains preserving the American tradition of 
religious liberty. I hope it is.
    Thank you.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the Representative from Idaho, Mr. 
Labrador, for 5 minutes.

 STATEMENT OF HON. RAUL LABRADOR, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mr. Labrador. Good morning, Chairman Chaffetz and Ranking 
Member Cummings. Thank you for holding this hearing today and 
allowing me to testify on my bill, the First Amendment Defense 
Act.
    From its very beginning, our nation has been home, harbor, 
and refuge to a wide range of religious beliefs. No other 
country has been as tolerant and as accommodating of religion 
and religious people as America.
    American tolerance has been a vital source of our strength 
for our people and for the Nation. Religious pluralism is a 
hallmark of our nation's promise. It is what continues to make 
the land of the free so attractive to religious refugees and 
earnest seekers from around the world whose humble wish is the 
free exercise of religion.
    It is unsurprising then that when it came time for our 
Founding Fathers to list those rights most fundamental to a 
free and fulfilled people, the freedom of religion was 
prominently placed before the rest. I am grateful for the 
opportunity to testify before you today because I fear that 
this fundamental freedom is threatened.
    Over the past several years, we have seen a shift away from 
our nation's long-held beliefs in the value of religious 
freedom, particularly where an individual's religious belief or 
moral conviction that marriage is the union of one man and one 
woman is concerned. This growing intolerance has spawned a 
climate of intimidation in the public sphere.
    I have worked with Senator Lee for the past 3 years on the 
First Amendment Defense Act to protect individuals, churches, 
and other religious institutions, including institutions of 
higher education, from government discrimination simply because 
they exercise what, until recently, we as Americans believed to 
be unalienable, self-evident right. No American should be 
threatened or intimidated because of their belief in 
traditional marriage.
    Critics of the bill have falsely claimed that the First 
Amendment Defense Act would give license to discriminate 
against the LGBT community. It has never been our intention to 
give anyone a so-called license to discriminate. In fact, 
Senator Lee and I have spent countless hours listening to both 
supporters and opponents of the bill in order to draft the 
legislation in a way that religious liberty is protected 
without taking anything away from anyone. Our bill does not 
take away anybody's rights, to answer Mr. Cummings' question. 
It just attempts to enshrine in religious liberties--to 
enshrine in law religious liberties long-believed to be 
protected.
    Today, the OGR Committee is considering a revised version 
of the First Amendment Defense Act, which protects those who 
stand for traditional marriage and same-sex marriage alike, and 
we have made these amendments after speaking to countless 
people who have both opposed and supported this bill.
    All Americans should be free to believe and act in the 
public square based on their beliefs about marriage without 
fear of government penalty. The First Amendment Defense Act 
simply ensures the fundamental right to exercise one's religion 
by prohibiting the Federal Government from denying or excluding 
a person from receiving a Federal grant, contract, loan, 
license, certification, accreditation, employment, or other 
similar position or status based on the exercise of that 
religious or moral conviction.
    Detractors will have you believe that the First Amendment 
Defense Act would allow hospitals to refuse care to a same-sex 
couple or turn away a single pregnant mother. This claim is 
completely false. The First Amendment Defense Act expressly 
excludes hospitals, clinics, hospices, nursing homes, or other 
medical or residential custodial facilities with respect to 
visitation, recognition of a designated representative for 
health care decision-making, or refusal to provide medical 
treatment necessary to cure an illness or injury.
    It has also been hypothesized that this bill would 
authorize Federal Government employees to refuse to process tax 
returns, visa applications, Social Security checks, or passport 
applications of same-sex married couples. The bill specifically 
excludes Federal employees acting within the scope of their 
employment, and thus does not permit government employees to 
refuse services or benefits in any circumstance.
    However, the pendulum of tolerance must swing both ways. An 
employee like former Fire Chief Kelvin Cochran acting outside 
the scope of their employment should not lose their job because 
of their beliefs they hold and because of their practices.
    Finally, the claim that FADA would allow homeless shelters 
or landlords to turn away same-sex married couples is again 
false. This bill does not alter or modify any civil rights 
protections or negate any Federal antidiscrimination laws 
already in existence. And I repeat because I think this needs 
to be heard, the bill does not alter or modify any civil rights 
legislation.
    In addition, the bill specifically excludes Federal for-
profit contractors, which are usually the contractors that are 
building these buildings, acting within the scope of their 
Federal contract from refusing any services or benefits.
    As I have had conversations with people and read the many 
comments about this bill in preparation for this hearing, one 
thing has become obvious to me, that there is a gross 
misunderstanding as to the intent and purpose of this bill. I 
have met with several opponents of the bill to understand their 
concerns, and I have read the testimony of many of the 
witnesses testifying today, and it has become painfully clear 
that they haven't even read the bill.
    I say to all detractors of this very measured piece of 
legislation just read it, please. Please read the bill that 
this committee is considering today before you make statements 
about the legislation. And to the media that's here today, I 
ask the same. Please read the bill. We have gone through 
painstaking time and effort to make sure that this bill takes 
nothing away from any individual, but in a measured way we 
protect the rights enshrined in the Constitution.
    Many people claim that this law is unnecessary. Well, I 
disagree, and you will see why it's necessary because of the 
testimony and many of the statements made here by the 
opposition. While Americans are free to structure their 
personal relationships as law permits, the Federal Government 
should not and must not use its muscle or might to threaten or 
target individuals and organizations who hold traditional 
religious views.
    The need for religious liberty hits close to home for me. I 
come from a religious tradition that in the no--not-too-distant 
past experienced intolerance, suffered discrimination, and 
fortunately, survived an official extermination order at the 
hands of the government. Freedom of religion is not only the 
right to worship in private, but it is also the right to 
publicly exercise our religion without fear of government 
interference.
    In the words of James Madison, ``The religion then of every 
man must be left to the conviction and conscience of every man, 
and it is the right of every man to exercise it as these may 
dictate. This right is in its nature an unalienable right.'' 
This right, this freedom is in jeopardy today.
    We live in a time where some strident voices call for 
tolerance but only for those with whom they agree. Intolerant 
tolerance really isn't tolerance at all. The First Amendment 
Defense Act is a reasonable, rational, and important step 
forward in the protection of religious beliefs and moral 
convictions regarding marriage. You will hear today various 
examples of how religious freedom is currently under attack. My 
bill is designed to protect the First Amendment's guarantee of 
the exercise of these freedoms.
    Thank you, Mr. Chairman. Thank you, Mr. Cummings. And thank 
you, Committee, for listening to these words.
    Chairman Chaffetz. We thank the gentleman.
    We will now recognize Congressman Frank. You are now 
recognized for 5 minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF BARNEY FRANK

    Mr. Frank. Thank you. Mr. Chairman and members of the 
committee, let me say as he's leaving room that I was glad to 
hear Mr. Labrador stress the importance of the American 
tradition of welcoming people, non-Americans to come to our 
shores to exercise religious freedom, and I was particularly 
pleased that, unlike some others, he did not exclude Muslims 
from that tradition. I think that is an important principle of 
which we, I hope, will continue to be proud.
    I'm sorry, was that a gavel? I ----
    Chairman Chaffetz. No, no, no.
    Mr. Frank. Oh, I ----
    Chairman Chaffetz. They were adjusting the mic, and it 
pulled out the cord and it made a sound. Sorry.
    Mr. Frank. I am still gavel-conscious when I'm here.
    [Laughter.]
    Mr. Frank. The next thing I want to say is that I 
appreciate this telling us that we should all be nice, and I 
would reciprocate by saying, yes, okay, how about being nice to 
me? I was here for 32 years. We used to say that we don't take 
things personally, and most of the time we don't, but, Mr. 
Chairman, this is very personal. This is a legislative 
enactment that essentially says that the fact that I live in a 
loving committed marriage with another man is somehow a threat 
to other people's freedom. And the Congress has to single that 
out to act against it.
    And let me make this point. You're talking about 
mischaracterization. This is not a bill to protect religious 
liberty in general. It singles out one particular religious 
tenet, the notion that same-sex marriage is morally wrong, oh, 
and also thrown in that non-marital sex is wrong. There are a 
whole lot of religious tenets that are under attack, so this 
one singles it out.
    And when the Senator said, well, let's be kind and 
respectful, I don't feel respected. I don't feel that this is 
kind to single out what I do. And I've got to say, Mr. 
Chairman, I got married when I was still here. I don't think 
any of the people with whom I served, some of whom are still 
here, were in any way inconvenienced or compromised or that 
their religious freedom was impinged. And I don't understand 
why you have to single out my marriage as something against 
which people have to be protected. And single out is what you 
do.
    And as far as tolerance is concerned, I want to be very 
clear. I think people who are here shared with me I have never 
been overly sensitive to people's opinions. Maybe the opposite 
is the case.
    [Laughter.]
    Mr. Frank. But when there was a bill to outlaw the 
practices of one of the outstanding homophobic bigots of our 
time, that nut from Kansas who used to go and picket cemeteries 
because he said that's the gay people's fault, I was one of 
three Members of the House who voted against that. Three of us, 
Ron Paul, Dave Wu, and I voted to allow this bigot to continue 
to demonstrate his bigotry. The Supreme Court sided with us. 
Any of you were here, you probably voted for that bill who had 
been there at the time.
    This is not a case of people's right to think what they 
think or feel what they feel. This bill--and I will differ 
specifically with Mr. Labrador on this--empowers people to take 
my tax money and use it to do things and then exclude me and 
Jim from its benefit and a lot of other people as well because 
Mr. Labrador said with regard to housing, he specifically 
wanted to object to that. I spent a lot of my time here working 
on affordable housing. We created the Low-Income Housing Trust 
Fund. I was glad to do it. Mr. Jordan is not here but his 
predecessor Mike Oxley and I worked together on that.
    And it says that you can build housing with Federal funds 
for low-income renters. A very large number of these, contrary 
to Mr. Labrador's view, and I say this because I specialize in 
this area, are nonprofits. Nonprofit developers are major 
stanchions of housing, and this bill explicitly says that the 
Federal Government may not say to a nonprofit developer if you 
intend to exclude same-sex married couples, we're not going to 
let you use the money to do that so that they can take the 
money I pay--I pay taxes, and as some of you will discover, I 
pay a lot more taxes now than when I was here ----
    [Laughter.]
    Mr. Frank.--and you're going to take the tax money I pay 
and build housing and say people like me can't live there 
because we somehow would be offensive, regardless of our 
behavior, and telling us that it won't impinge on any other 
existing civil right is meaningless because in much of the 
country there is no such rights.
    The Supreme Court says we have a right to be married. There 
is no Federal legislation and in many States no other 
legislation that protects us against discrimination. So the 
argument that, oh, you don't have to worry because existing 
statutes aren't preempted is irrelevant to many, many Americans 
who live in places where there is no such statute.
    Also, I was struck--I think it was Senator Lee who said, 
well, what about people who administer programs involving care 
for children? And they believe that the child is best served by 
a marriage with two parents, a mother and a father. Well, if 
you believe that and if you believe the child has been 
disadvantaged by not having it, how do you morally justify 
further disadvantaging that child by denying him or her 
benefits? Because that's what this bill allows. It says that if 
you are--we can say, hey, the child of a same-sex couple or an 
unmarried parent, no, we don't approve of that and we're going 
to exclude that, so you punish the child. Nothing in here says 
that you cannot do that.
    And finally, it would allow State employees--now Federal 
employees you exclude from this but State employees are not 
covered in the exemptions. A lot of Federal programs are 
administered by State employees. So this now leaves it very 
much open to the interpretation that State and Federal 
programs, unemployment compensation, disability, you can 
disapprove of and exclude people like that.
    So, Mr. Chairman, I can't say I'm glad that we're having 
this hearing. I really resent the fact that you're having this 
hearing. You're singling me and a lot of other people out who 
don't deserve this from you. We don't deserve the unkindness 
and the disrespect that we get.
    If you were talking about people generally being protected 
because their religious views might be under assault, then 
bring out a general bill, but to say that same-sex marriage is 
somehow the issue and that people should be allowed to take 
Federal money and discriminate against those of us who are in 
same-sex marriages, which this bill clearly does in some ways 
for nonprofit contractors, for example, it violates a great 
principle.
    And I'll close with this when people say I'm somehow 
assaulting them. I'm not talking about private citizens. I'm 
talking about people who decide voluntarily to go after Federal 
money. And a great former Member of this body Gus Hawkins said 
when he presided over a bill that said you can't take Federal 
money and discriminate, if you're going to dip your fingers in 
the Federal till, don't complain if a little democracy rubs off 
on them. I hope that principle will win out.
    [Prepared statement of Mr. Frank follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Chaffetz. I thank the gentleman.
    Mr. Cochran, you are now recognized. Make sure your 
microphone is on there. There we go. Thank you.

                  STATEMENT OF KELVIN COCHRAN

    Mr. Cochran. Chairman Chaffetz, Ranking Member Cummings, 
members of the committee, it's great to be back before 
Congress. The last time I was here was when President Barack 
Obama nominated me to be the United States fire administrator. 
Thankfully, I was unanimously confirmed by the Senate Homeland 
Security Committee.
    As I sit before you today, as an African-American male with 
34 years in public safety, I, like many Americans, have been 
heartbroken by the loss of life in the recent events in our 
nation. So before my remarks, I'd be remiss not to acknowledge 
the sensitivities of the loss of lives felt by the African-
American community, also the sensitivity of the loss of lives 
felt in the public safety community and as a result of this 
being the 1-month anniversary of the loss of lives in the city 
of Orlando, Florida. And I would ask that we all continue to 
pray for our nation.
    To begin my remarks on this issue today, I was born in 
Shreveport, Louisiana, in 1960 at Confederate Memorial 
Hospital. I was one of six kids. My father left my mother and 
raised all six of us by herself. At 5 years old I heard sirens 
outside of our front door of the shotgun house we lived in, and 
to my surprise, we opened the door and there was a big red 
Shreveport Fire Department fire truck in front of our house 
fighting the fire in Ms. Mattie's house across the alley that 
we lived in. On that day I was smitten, and I wanted to be a 
firefighter when I grew up.
    The grownups told us in our neighborhood that in the United 
States of America all of our dreams would come true if we 
believed in and had faith in God, if we go to school and got a 
good education. If we respected grownups and treat the other 
children like we wanted to be treated, all of our dreams would 
come true.
    And in my case they were right. In 1981 I became a 
Shreveport firefighter, one of the first African-Americans in 
the history of the city of Shreveport to do so. However, I 
faced significant discrimination because of my race. There were 
designated plates, spoons, and forks for the black 
firefighters. At one fire station I had to wash the dishes in 
scalding hot water, and captain stood by to make sure that the 
water was hot enough to get rid of the germs. There was a 
designated black bed for the black firefighters so that the 
white firefighters on the other shifts could have the assurance 
that they were not sleeping on a bed that was shared by a black 
man. And I was constantly faced with a barrage of racial slurs.
    However, I believe that in our country if I practiced the 
values that I was raised upon that made my dream come true, I 
had a chance to overcome those racial barriers, and that 
through compassion for people, passion for the work that we 
were all called to do, and competence in the work that we all 
performed that I would win over my brother and sister 
firefighters and would one day be recognized as an equal member 
of the Shreveport Fire Department.
    In 1999 I became the first African-American for the city of 
Shreveport in its history. In 2008 I was honored and humbled to 
be appointed as fire chief of the city of Atlanta under the 
Honorable Mayor Shirley Franklin. Twenty months later, I was 
honored to be appointed to the United States Fire 
Administration by the Honorable President Barack Obama.
    I was here less than a year and the Honorable Mayor Kasim 
Reed came to Washington, D.C., and recruited me back to the 
city of Atlanta where I resumed my duties as a fire chief under 
his leadership. In 2012, my professional association, the 
International Association of Fire Chiefs and Fire Chief 
magazine recognized me as the fire chief of the year.
    But in 2014, the week of Thanksgiving, my childhood-dream-
come-true fairytale career came to an abrupt end when I was 
suspended for 30 days without pay after Atlanta city officials 
who disagreed with the Judeo-Christian beliefs about marriage 
learned that I mentioned my beliefs in such in a book that I 
had written for a Christian men's bible study.
    During that suspension, the city launched an investigation 
to determine if my religious beliefs caused me to discriminate 
against anyone in the LGBT community. That really was a shock 
to me. My faith does not teach me to discriminate against 
anyone but rather it instructs me to love everyone without 
condition and to recognize their inherent human dignity and 
worth as being created in the image of God and to lay down my 
life if necessary in the service of my community as a 
firefighter.
    And I would even do it today if it was necessary even in 
this very room. In fact, it was because of the discrimination 
that I myself suffered that I made a promise that under my 
watch if I were ever in charge no one would ever have to go 
through the horrors of discrimination that I endured because I 
was different from the majority, which is why I created in 
Atlanta the Atlanta Fire Rescue Doctrine based upon a 
collaborative effort from all the men and women from every 
people group within our organization. It was a doctrine that 
established a system to provide justice and equity for every 
member of the department and every member of the community that 
we had served.
    Consequently, after concluding its investigation, the city 
determined that I had never discriminated against anyone, 
including members of the LGBT community. Nevertheless, ladies 
and gentlemen, on January the 6th, 2015, I was terminated from 
employment from the city of Atlanta. It's unthinkable to me 
today as an American that the very faith and patriotism that 
caused my childhood dreams to come true and my professional 
achievements is what the government ultimately used to bring my 
childhood dream come true to an end.
    I wrote a book to encourage men, inspire them to fulfill 
their God-called purpose as husbands, fathers, and community 
leaders. Only a few paragraphs of the 162-page book addressed 
teachings, Biblical teachings on marriage and sexuality, versus 
taken directly from the Holy Scripture, yet the city of 
Atlanta's officials, including Mayor Reed, made it clear that 
it was those beliefs that resulted in my suspension, the 
investigation, and my termination.
    Following my termination, an Atlanta City Council member 
made this statement, ``When you're a city employee and your 
thoughts and beliefs and opinions are different from that of 
the city's, you have to check them at the door.'' The city's 
actions do not reflect true tolerance and diversity that has 
always been a part of America's history and set us apart from 
other nations. Equal rights and true tolerance means that 
regardless of your position on marriage you should not--you 
should be able to peaceably live out your beliefs and not 
suffer discrimination at the hands of the government.
    The First Amendment Defense Act would ensure that no 
Federal employee who expressed their beliefs about marriage on 
their own time face discrimination by the government and face 
punishment that it have endured. Please pass this law to ensure 
our country remains diverse and truly tolerant. No one deserves 
to be marginalized or driven out of their profession simply 
because of their beliefs about marriage.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Cochran follows:]
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Meadows. [Presiding] Thank you, Chief Cochran.
    Mr. Obergefell, you are recognized for 5 minutes.

                  STATEMENT OF JIM OBERGEFELL

    Mr. Obergefell. Chairman Chaffetz and the Ranking Member 
Cummings, thank you for inviting me to testify today. My name 
is Jim Obergefell, and I was the lead plaintiff in the Supreme 
Court's historic marriage equality ruling in Obergefell v. 
Hodges. June 2015 was a joyous time for me and LGBT people 
across the country. The Supreme Court decision extending the 
freedom to marry to all loving couples was a landmark 
achievement in the long and ongoing struggle for equality under 
the law. I was deeply honored to have played a role in helping 
same-sex couples win this victory.
    June of this year was a time of heartbreak for millions 
around the world, including myself. The murder of 49 people and 
wounding of 53 others at a gay nightclub in Orlando, Florida, 
on June 12 was a devastating tragedy and the worst attack on 
the LGBT community in our nation's history.
    Today, exactly 1 month after this horrifying event, I am 
appearing before this congressional committee to discuss a bill 
that would authorize sweeping, taxpayer-funded discrimination 
against LGBT people, single mothers, and unmarried couples. I 
think that is profoundly sad.
    With all due respect to you and the members of this 
committee, this hearing is deeply hurtful to a still-grieving 
LGBTQ and ally community. It is my opinion that a hearing like 
we're having today would have been much better spent in looking 
at how best to ensure that no one in this country is subjected 
to violence or discrimination based on who they are or whom 
they love. Sadly, that is not the focus of today's hearing.
    I will explain why I am so strongly opposed to the so-
called First Amendment Defense Act, but I first would like to 
share a bit more about myself. I was in a loving, committed 
relationship with my partner and eventual husband John Arthur 
for almost 21 years. I wish more than anything that John were 
still with me today, but he passed away on October 22, 2013, 
after a years-long battle with amyotrophic lateral sclerosis, 
known as ALS. I was with John, caring for him, at every 
difficult stage of his illness.
    Losing the most important person in your life is never an 
easy experience or one that is free of heartbreak. However, 
losing John was made much more difficult by the State of Ohio 
because it refused to recognize our marriage. We learned that I 
would not be listed on John's death certificate as his 
surviving spouse when he died because the State refused to 
recognize our marriage for any purpose.
    It is difficult to express just how devastating it is to be 
told by the State in which you reside and where you were born 
that you will not be recognized as the surviving spouse to the 
man you loved more than anything and built a life together with 
for more than two decades.
    We decided to fight back against this injustice. Together 
with partners like the ACLU, we began a legal journey that, 
sadly, John did not get to see to conclusion. It culminated in 
a momentous victory for loving and committed couples across our 
country. I know John would have been proud to have a played a 
role in this historic legal victory for equality.
    As important as it is that same-sex couples like John and I 
have the ability to obtain a civil marriage license in any 
State of the country, it is also critically important that this 
constitutional right is not undermined by proposals, like this 
legislation, that would subject loving couples like me and John 
and other LGBT people to discrimination.
    I understand that the proponents of this legislation argue 
that it is necessary to protect churches, clergy, and others 
who oppose marriage equality for religious reasons. But the 
First Amendment is already clear on this point. Since the 
founding of this country, no church and no member of the clergy 
has been forced to marry any couple if doing so would violate 
their religious teachings. That has not changed since same-sex 
couples won the freedom to marry.
    Religious liberty is a core American value. Everyone in 
this country is free to believe or not and to live out their 
faith as they see fit, provided that they do not do so in a way 
that harms other people. As I see it, this legislation turns 
this value on its head by permitting discrimination and harm 
under the guise of religious liberty.
    Among this legislation's many potential harms, it could 
allow any privately owned business to refuse to let a gay or 
lesbian employee take time off to care for a sick spouse even 
though that otherwise would violate Federal Family and Medical 
Leave laws. This is not the kind of dignity and respect that 
the Supreme Court spoke so eloquently in the decision granting 
the freedom to marry nationwide last June. What could ever 
justify such a discriminatory and harmful action?
    Earlier in this hearing, it was stated that the purpose of 
the First Amendment Defense Act is to ensure no one is 
discriminated against because of how they view marriage. I 
would like you to read the bill again and understand that is 
exactly what this bill does. It allows discrimination against 
me and couples like me and John across this country who believe 
in marriage equality, who believe in our constitutional right 
to marry the person we love. I believe that the United States 
Congress must be better than this.
    Thank you again for the opportunity to provide these 
remarks.
    [Prepared statement of Mr. Obergefell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
        
    Mr. Meadows. Thank you.
    Ms. Waggoner, you are recognized for 5 minutes.

                 STATEMENT OF KRISTEN WAGGONER

    Ms. Waggoner. Mr. Chairman and members of the committee, 
America enjoys a rich heritage of protecting fundamental human 
rights and civil liberties. The lifeblood of our nation has 
been our ability to speak freely and civilly and to act 
consistent with our beliefs even when those beliefs are 
politically unpopular.
    Indeed, same-sex marriage advocates would never have gained 
traction if the government had used the power of law to 
suppress their speech and banish them from the public square. 
We failed to preserve justice and true equality if our 
constitutional freedoms hinge on the whims of those who have 
political power.
    Religious freedom is a pre-political right that rests 
securely in our dignity as human beings. It belongs to all of 
us. It is inalienable. And we must never forget that protecting 
religious freedom protects freedom for the religious and the 
nonreligious alike. It allows all of us to engage and explore 
the meaning and purpose of life and then to order our lives 
consistent with the answers we find.
    Regardless of what one thinks about religion, we also know 
that civil liberties travel together. Countries that protect 
religious freedom are linked to vibrant democracy, gender 
empowerment, robust freedom of the press, and economic freedom. 
And countries without robust religious freedom are generally 
linked to more poverty, more war, extremism, and suppression of 
minorities. Religious freedom serves as a lynchpin to our other 
civil liberties and our human rights. And its loss signals the 
loss of other freedoms sure to follow.
    The First Amendment Defense Act preserves the core of the 
American experiment and safeguards the values that we all hold 
dear: diversity, human dignity, equality, and freedom for all 
people. It ensures that Americans do not face discrimination at 
the hands of the Federal Government simply because they seek to 
stay true to the very principles that guide and inspire their 
commitment to social justice and to their communities.
    Consider what our country would look like without these 
institutions from the Catholic-run homeless shelters and 
adoption agencies to the Baptist food banks and the Islamic 
hunger-relief programs or to the religious institutions of 
higher learning. These charities and institutions should not 
have to choose between abandoning the beliefs that motivate 
their service and being denied fair and equal treatment by 
their government.
    Using the Federal Government to drive out these 
institutions will harm our most disadvantaged members of 
society. Private charities should not have to live in fear of 
being shut down while they are offering a hand up.
    Are we really willing to censor and even force individuals, 
organizations, and churches to close simply because they adhere 
to the long-held belief that lies at the very core of each of 
the Abrahamic faiths?
    Members of the committee, the real test of liberty is what 
happens when we disagree, and laws that protect views on 
marriage promote tolerance, and they contribute to our society 
and make it a more respectful and peaceful place in which to 
live. And FADA does just that.
    Now, today, we've already heard mischaracterizations about 
what this bill does. And like others that have gone before, 
please, I urge you, read the language in the bill.
    I'd like to briefly address three of those 
mischaracterizations. First, any attempt to demonize those who 
adhere to the belief that marriage is between a man and a woman 
is wrong. Since when have we assumed that anyone who holds a 
different view is motivated by hatred or animus?
    Second, comparing those who believe in man-woman marriage 
to racists is intellectually dishonest. Racists of Jim Crow 
America subjected African-Americans to fire hoses and lynch 
mobs. They burned their businesses, they bombed their churches, 
and they destroyed their communities. In contrast, those who 
believe in man-woman marriage seek only to peacefully live and 
work consistent with this truth, one that is universally 
recognized by all major religious faiths, by all cultures, by 
all civilizations, and by all races throughout human history, 
which is why the Supreme Court affirmed that it is an honorable 
belief held by reasonable people.
    Finally, we've already heard today tall tales to suggest 
that Americans will lose rights under FADA if it is adopted. 
Let us be clear. That is not true. FADA is very limited in 
scope, and it does not take away civil rights protections. Any 
suggestion to the contrary is not supported by the bill's text.
    In a pluralistic society, a multitude of convictions, 
ideas, and beliefs will always exist. The First Amendment 
Defense Act helps to ensure that citizens are not marginalized 
based on their belief in marriage, whichever belief that is. 
And it preserves those freedoms that are integral to our human 
dignity.
    It is a time for choosing. People throughout world history 
under every sort of regime have had the freedom to believe. But 
what has made America great, what makes it unique is our 
freedom and commitment to be able to peacefully live out those 
beliefs. The First Amendment Defense Act ensures that tolerance 
remains a two-way street. Please, please do not allow marriage 
to become a litmus test for participation in our civil society.
    Thank you for your time.
    [Prepared statement of Ms. Waggoner follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
        
    Mr. Meadows. Thank you.
    Ms. Franke, you are recognized for 5 minutes.

                 STATEMENT OF KATHERINE FRANKE

    Ms. Franke. I'm the only one with a different kind of mic, 
but it seems to be on.
    Mr. Chairman, Ranking Member Cummings, the rest of the 
committee, thank you so much for inviting me to testify today 
on the important issues of religious liberty and civil rights 
that are before the committee.
    I'm a professor of law at Columbia Law School, as you heard 
earlier, and I'm also the faculty director of the Public 
Rights/Private Conscience Project at Columbia. It's a project I 
founded a few years ago where we bring academic--legal academic 
expertise to bear on the multiple contexts in which religious 
liberty rights are in tension with other fundamental rights to 
equality and liberty. And clearly, the bill before you today is 
one of such contexts.
    My testimony today is delivered on behalf of 20 other 
prominent legal academics who have joined me in providing an 
in-depth analysis of the meaning and the likely effects of 
FADA, the First Amendment Defense Act, were it to become law. 
We particularly feel compelled to testify today because the 
first legislative finding contained in FADA declares that 
``leading scholars concur that conflicts between same-sex 
marriage and religious liberty are real and should be addressed 
through legislation.''
    So as leading scholars, we must correct this statement. We 
do not concur that conflicts between same-sex marriage and 
religious liberty are real, and we do not hold the view that 
any such conflict should be resolved through or addressed 
through legislation.
    On the contrary, we maintain that religious liberty rights 
are already well protected in the United States Constitution, 
in Federal and State law, rendering in our view FADA both 
unnecessary, and as I hope I can convince you, harmful.
    I would ask that the more thorough written testimony that 
my colleagues and I have prepared would be entered into the 
record.
    Mr. Meadows. Without objection.
    [Prepared statement of Ms. Franke follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
        
    Ms. Franke. Thank you.
    We all agree, I think all of us on this panel agree and I 
would guess everyone in this room agrees that religious liberty 
is an important, indeed, a fundamental American value. Yet, as 
I've said, it receives robust protections under the U.S. 
Constitution in the First Amendment, under Federal laws 
including the Religious Freedom Restoration Act, and also 
including every State's Constitution and many States, more than 
half of the States have enacted what we call mini-RFRAs or 
their own religious liberty statutes.
    In this sense FADA is a solution in search of a problem. 
While Chief Cochran's termination raises very troubling issues 
for sure about religious liberty and public service, FADA would 
never address his termination. The facts of his termination 
don't fall under any reading of FADA within the protections 
that it would create.
    So even more worrisome than the fact that FADA is creating 
a solution to a problem that doesn't exist, FADA does not 
defend but rather violates the First Amendment. It does so by 
unsettling the delicate balance our Constitution and our courts 
have struck between protecting free--the free exercise of 
religion and preventing the establishment of religion by the 
Federal Government.
    So how is this so? Well, as I've said, and I would insist 
that religious liberty is very important. No court, including 
the Supreme Court, and no reasonable scholar of the First 
Amendment would hold the view that religious liberty rights are 
always absolute. To be sure, our Constitution adamantly and 
absolutely protects religious belief, but it does not 
absolutely protect every single act that one takes in the 
service of that belief. These beliefs have to be reconciled 
with other fundamental rights and values that we hold dear.
    Yet this is exactly what FADA would do. It creates an 
absolute immunity from any penalty if a person can justify 
their actions with religious beliefs or moral convictions about 
marriage or sexuality. This immunity would attach regardless of 
the good or even compelling reason that the Federal Government 
has for a law that might conflict with that person's religious 
beliefs or moral convictions.
    As the ranking member and many of the other members of this 
committee are well aware, not so long ago, opponents of racial 
equality made arguments almost exactly similar to those being 
used to defend the need for FADA today. They relied on a 
theology of segregation, a well-developed set of religious 
beliefs that people of different races were designed by God's 
will to be separate from one another. These religious beliefs 
justified resistance to an evolving norm, constitutional, 
political, and social norm about racial equality, and on the 
basis of those beliefs, they demanded an exemption from laws 
that mandated racial equality in employment, education, 
housing, and in marriage itself.
    The Supreme Court unequivocally rejected those arguments. 
It recognized that the Federal Government had a fundamental 
overriding interest in eradicating racial discrimination and 
that the public had an interest that substantially outweighed 
whatever burden may be placed on the religious beliefs the 
defenders of Jim Crow segregation.
    And where my colleague to my right Ms. Waggoner wants to 
distinguish the kinds of racial violence that we witnessed in 
the 1960s or really for most of the United States history from 
the kinds of violence that lesbian and gay people and unmarried 
people have suffered in this country, I would beg to differ. As 
Mr. Obergefell has noted and Mr. Frank have noted, we live in a 
very violent society, and LGBT people are often the victims of 
that violence, disproportionately so. The statistics show that 
we are disproportionately the victims of that violence. So I 
would beg to differ with that differentiation.
    But now, as in the history of religious liberty being 
invoked to justify exemptions from civil rights laws, those 
liberty rights must be weighed in relationship to other 
interests that the government may have enforcing laws that 
secure equality and liberty for--excuse me, for all of our 
citizens. We have existing principles in the Constitution and 
in Federal law that allow for that balancing to take place in a 
sensitive and responsible way that owes fidelity to the 
fundamental importance of religious liberty and the fundamental 
importance of other dearly held rights.
    But when we miss that balance, when we balance too heavily 
in the favor of religious liberty, we risk creating another 
constitutional violation, and that is a violation of the 
Establishment Clause. Why is this so? Supreme Court again has 
been very clear that the religious accommodations that cause a 
meaningful harm to other private citizens violate the 
Establishment Clause. Protecting the religious liberty of some 
cannot be accomplished or purchased by sacrificing the rights 
and intent of others.
    And indeed, Senator Lee said just that thing in introducing 
the virtues of this bill. And if you read it closely, and I 
have--it is my job, as it is yours, to read bills closely--I 
would say that we have a rather fundamental disagreement about 
what the language of the bill says.
    So this view about causing harms to third parties is 
something that the Supreme Court upheld 2 years ago by a 
majority of the Court in the Hobby Lobby case. This is not an 
old idea. It's not an idea of the minority of the Supreme 
Court. It is one that the Court embraces.
    So I have prepared--I won't go through it now--but a 
detailed analysis of all of the ways in which FADA would create 
substantial material harms on third parties. It's contained in 
our longer testimony, and it's contained in a shorter version, 
which I have and have submitted to the committee and would ask 
be entered in the record.
    Thank you so much, Mr. Chairman.
    Mr. Meadows. Without objection, it will be included.
    [The information follows:]
    Mr. Meadows. Thank you for your testimony.
    Dr. Franck, you are recognized for 5 minutes.

                 STATEMENT OF MATTHEW J. FRANCK

    Mr. Franck. Thank you, Mr. Chairman. I'd like to take just 
a moment not only to thank the entire committee, Ranking Member 
Cummings, Chairman Chaffetz who's absent, but also to say good 
morning to my Congresswoman, Mrs. Watson Coleman. I hail from 
Lawrenceville, New Jersey, and I'm a constituent of yours, so 
very nice to see you.
    I'd also like to correct the record, an inadvertent 
misstatement of Chairman Chaffetz that the Witherspoon 
Institute where I work is at Princeton University. It's in the 
town of Princeton but it's independent of the university.
    The Supreme Court's decision in Obergefell v. Hodges in 
June 2015 redefined the meaning of marriage in American law. 
But many Americans remain opposed to the Court's imposition of 
same-sex marriage. The reasonable belief that the true meaning 
of marriage is its traditional meaning, the conjugal union of a 
man and a woman, can be expected to persist among millions of 
our fellow citizens. In part, this is because that view is also 
supported by their religious faith, though moral convictions on 
the subject can be strongly held for nonreligious reasons, too.
    And so Obergefell has cast a shadow over freedom of 
conscience in our country. People who sincerely hold on 
religious or moral grounds that marriage can only be between a 
man and a woman fear that they may be compelled to betray their 
consciences or suffer grave consequences. Some people have 
already experienced this, people such as Chief Kelvin Cochran.
    Hence, the First Amendment Defense Act preventing the 
Federal Government from discriminating against those who act on 
a sincerely held and reasonable view of marriage is vitally 
important legislation.
    The Justices who wrote in Obergefell anticipated the 
problems we now confront. Quite remarkably, they spoke about 
religious liberty in a case that seemed to have nothing to do 
with religious liberty. But the dissenters explicitly mentioned 
the ruling's dire consequences for religious freedom and noted 
that in the legislative arena changes in the law of marriage 
could have included accommodations of conscience rights, as was 
done in some States that adopted it legislatively.
    After a judicial decree, however, it could be said it 
becomes still more important for legislatures to enact what 
Justice Thomas called measures ``codifying protections for 
religious practice.'' In order to avoid the opening of what 
Justice Alito called ``bitter and lasting wounds'' in American 
society.
    Justice Kennedy, speaking for the Court, spoke of people's 
continued freedom to believe and to express a contrary view of 
marriage, but did he rule in or rule out a freedom to act on a 
view contrary to the ruling he announced? Was his description 
of religious freedom a floor or a ceiling?
    Justice Kennedy had spoken elsewhere in his opinion of the 
``decent and honorable religious or philosophical'' principles 
that undergird what people believe about conjugal marriage. And 
he said the Court should not ``disparage'' such views. He did 
not call defenders of traditional marriage bigots whose views 
deserve no respect like people who once opposed interracial 
marriage. He treated them as reasonable people who should not 
be considered outsiders.
    Thus, the answer to our question is that Obergefell does 
not foreclose accommodations by the legislatures of the land, 
including this one, of full freedom of conscience.
    The aftermath of another controversial case decided by the 
Supreme Court should be our model today. After Roe v. Wade, 
Congress passed the Church and Weldon Amendments, which honored 
the consciences of everyone who might otherwise be coerced into 
facilitating or cooperating with abortions. The proposed First 
Amendment Defense Act likewise is an appropriate and indeed 
urgent response to the threats now looming against the rights 
of conscience regarding marriage. It is in keeping with 
America's best traditions of honoring freedom of religion and 
the right of dissent.
    The scale of the looming threat is great. People from 
multiple faith communities and persons of no religion at all 
have sincerely held conscientious views on marriage that they 
cannot betray without compromising who they are. FADA would 
ensure that the Federal Government does not impose a self-
destructive choice on these people.
    A few words are in order about what FADA is not. It is not 
a license to discriminate against others, least of all because 
of who they are. The act says nothing about identity, dignity, 
status, or orientation. It protects people's core convictions 
about marriage as an institution, not any attitudes they may 
have about LGBT persons as persons.
    FADA does not get the Federal Government into the business 
of judging people's relationships. To the contrary, it gets the 
Federal Government out of taking sides on the contested issue 
of whose view of marriage or sexual relations is the preferred 
one or the one everyone must conform to.
    FADA is in no way a violation of the Constitution's equal 
protection principle. Even if we were to grant that it allows 
one person to discriminate against another, which I do not 
grant, that is conduct entirely in the private sphere of civil 
society, not the state action the Constitution reaches. Indeed, 
by clearing space for opposing viewpoints on marriage to be 
equally protected in the law, FADA is a significant step for 
the equal protection of the laws, not against it.
    Finally, FADA is not, as Professor Franke and her 
colleagues have suggested, an unconstitutional establishment of 
religion. It goes no preferred standing to any religious 
viewpoint over another. It sweeps across all faith communities, 
and it honors nonreligious moral convictions as well. Indeed, 
in its amended form just recently introduced, it is now 
completely viewpoint neutral, satisfying all reasonable 
concerns about its open, fair-minded, equal treatment of all.
    As a vital after-Obergefell measure, the First Amendment 
Defense Act prevents no one from getting married or from 
celebrating a joyous wedding day. It demeans no one and 
protects people who otherwise might have to choose between 
their conscience and their livelihood, their ability to serve 
the public, their education, or their freedom. The passage of 
FADA would be a great step towards securing the space for 
people of goodwill and differing views to dissent and to 
disagree respectfully. It would preserve a free society where 
no one's decent and honorable views are under threat of being 
stamped out.
    In a time when pessimism is on the rise regarding our 
``culture wars'' FADA is a significant step in the direction of 
peace and civility. I urge the committee to move this bill 
toward its ultimate passage by the Congress and enactment into 
law, and I ask the committee to enter my longer prepared 
testimony into the record.
    Mr. Meadows. Without objection, so ordered.
    [Prepared statement of Mr. Franck follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Meadows. I want to thank all of the witnesses for your 
testimony, very illuminating testimony.
    And the chair recognizes the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks for the 
panel for being here.
    And, you know, I would also give credit and thanks to our 
Chairman Chaffetz for holding this hearing. I think it is 
important. We cannot be put off by the fact that there is 
disagreement and diversity of opinion. In our country today we 
are very much divided. That has to change. And we have to 
understand that there are things that we are doing and have 
done that will promote this disunity as opposed to recognizing 
the unity that comes in a free people doing free things, and 
sometimes accepting positions that we don't agree with, but we 
understand the freedom that this great country, a country 
established very clearly under Judeo-Christian principles, a 
Christian nation that afforded more freedom and opportunity for 
anyone, anyone than any other country in the world.
    Also, I thank the chairman for holding the hearing because 
this is an issue we ought to address. I have had the privilege 
of performing scores of weddings and turning down some weddings 
of heterosexual couples who didn't understand the importance of 
marriage and the sanctity of marriage. I have had the privilege 
of performing the wedding ceremony of a Rwandan and a 
Caucasian, an American, my daughter and son-in-law, and see 
that marriage blessed with now an African-American 
granddaughter and celebrating what I have always known to be 
one race, the human race, as God created it.
    Marriage is an important thing. We ought to discuss it, so 
I appreciate the panel being here.
    Mr. Cochran, congratulations on your distinguished record 
of service, which you include what you have indicated to us 
plus the fact of being the U.S. fire administrator, as well as 
the first African-American fire chief for Atlanta and your work 
in Shreveport as well.
    You were initially suspended without pay for 30 days by the 
city of Atlanta. Had the city conducted a review of any facts 
at the time it suspended you?
    Mr. Cochran. No, they did not. The investigation ensued 
after I was suspended for 30 days.
    Mr. Walberg. So no review beforehand?
    Mr. Cochran. No, sir.
    Mr. Walberg. Just suspension?
    Mr. Cochran. Yes, sir, without pay.
    Mr. Walberg. Without pay.
    Mr. Cochran. But subsequently, the investigation cleared me 
of any discrimination of any sort and certainly no 
discrimination against a member of the department who was a 
part of the LGBT community and never discrimination against any 
member of the city of Atlanta who is a part of the LGBT 
community.
    Mr. Walberg. So the city of Atlanta ultimately, maybe after 
reading the book and looking at your record, found that you 
discriminated against nobody else?
    Mr. Cochran. That's correct. There was an assumption from 
the outset of discovering my Judeo-Christian beliefs about 
marriage and sexuality that, because of my beliefs, I would 
have a propensity to hate people who had those sexual 
preferences and beliefs or discriminate against people who have 
those sexual preferences or beliefs. Their own investigation 
assured that I had not.
    Mr. Walberg. In your opinion what could have happened to 
you if you self-published your devotional book when you were a 
Federal fire administrator for the U.S. Fire Administration in 
2009?
    Mr. Cochran. It's hard to say what would have happened at 
that time, but in my heart of hearts, I believe that if I would 
have published that book presently as a Federal employee, the 
same circumstances I've experienced in the city of Atlanta I 
would experience as a Federal employee.
    Mr. Walberg. Okay. Regardless of your record?
    Mr. Cochran. Regardless of my record.
    Mr. Walberg. Ms. Waggoner, you have heard some very 
powerful testimony today from Chief Cochran and others with 
strong beliefs and viewpoints regarding his outgoing and 
ongoing real-life experience. Are there other examples that you 
could share with us today of similar situations to Chief 
Cochran having their religious liberty infringed upon?
    Ms. Waggoner. There are numerous examples. At Alliance 
Defending Freedom, we not only represent Chief Cochran but we 
represent a number of other individuals who, at the State 
level, have been forced to choose between their livelihoods and 
their religious beliefs, including those that have been sued 
personally and corporately having everything they own at issue 
if they lose. And all of our clients have willingly served 
everyone. There is not one case we're aware of in the United 
States where anyone has denied goods or services because 
someone says they have a particular sexual preference.
    Mr. Walberg. That includes institutions and welfare 
organizations ----
    Ms. Waggoner. Absolutely.
    Mr. Walberg.--and churches?
    Ms. Waggoner. Absolutely it includes those. What is at 
issue is that we're seeing some laws being used by the 
government to force people to have to participate in religious 
ceremonies that violate their religious convictions and have to 
express messages and create art that violate their core 
religious convictions as well.
    I would also note there not only do we have solicitor 
general's comments threatening tax exemptions for religious 
institutions, we have a number of Executive orders that the 
Obama administration has issued or agency interpretations that 
threaten that, and then we have a number of foster care and 
adoption agencies who have lost their licenses, not to mention 
the American Bar Association's investigation of Brigham Young 
University's Law School, which is currently pending as well, I 
believe.
    Mr. Walberg. Thank you. I yield back.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the ranking member of the full 
committee, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Professor Franke, as I understand this bill, it would allow 
any company to fire employees if they are in same-sex marriages 
without penalty from the Federal Government. This would mean 
these employees would be prevented from getting relief for 
their wrongful termination from the Equal Employment 
Opportunity Commission. Is that your understanding?
    Ms. Franke. That's my reading of the bill, Mr. Cummings. 
It--the bill would prohibit the Equal Employment Opportunity 
Commission or any other Federal agency from inflicting a 
penalty. And penalty is a very large and vague term, but any 
penalty against someone who's religious or moral convictions 
commit them to the view that marriage is a union of one man and 
one woman and/or anyone who has extramarital relations, also a 
very vague term. So unmarried parents may also be vulnerable to 
termination without recourse to Federal law.
    Mr. Cummings. So this bill would apply to small business in 
huge corporations, private companies, and publicly traded 
companies. It would allow them to fire employees and take all 
kinds of other discriminatory actions against them like denying 
them leave to take care of their spouses or children under the 
Family and Medical Leave Act without penalty from the Federal 
Government? Is that correct? Is that ----
    Ms. Franke. That's ----
    Mr. Cummings.--your understanding?
    Ms. Franke. That's correct.
    Mr. Cummings. These companies could pay them less or give 
them reduced benefits like no childcare benefits for children 
of same-sex couples. Is that your understanding?
    Ms. Franke. That is my understanding.
    Mr. Cummings. Companies could do this if their CEOs decide 
that they have religious beliefs or moral convictions that 
cause them to discriminate in this way, and the Federal 
Government would be prohibited from taking action. Is that 
correct?
    Ms. Franke. That is correct.
    Mr. Cummings. Is that your understanding? So since we have 
a robust panel here today, I would like to ask each of you some 
basic questions about your views on discrimination. Please 
raise your hands if you believe it is acceptable for businesses 
in the United States to discriminate against employees because 
of their race. If you believe that, would you raise your hands?
    Raise your hand if you believe that it is acceptable for 
companies to discriminate against employees because they are 
black or white or Hispanic or Latino or Asian?
    Now, please raise your hand if you believe it is acceptable 
for businesses in this country to discriminate against 
employees who have disabilities?
    Please raise your hand if you believe it is acceptable for 
businesses in this country to discriminate against women, to 
pay them less than men for the same work?
    Okay. Now, raise your hand if you believe it is acceptable 
for businesses in this country to discriminate against 
employees who are in same-sex marriages.
    So, Professor Franke, this bill would allow Fortune 500, 
the biggest earners from the past year, including companies 
like ExxonMobil, General Electric, Walmart to create new 
policies tomorrow to fire any employees in same-sex marriages, 
or they could decide not to provide health insurance, and they 
would face no recourse from the Federal Government. Is that 
your understanding?
    Ms. Franke. Well, that is a very broad statement. It--what 
the bill does is it allows a company like a Hobby Lobby company 
who has a view based in sincerely held religious belief or 
moral convictions that marriage should be between a person--one 
man and one woman or that a person should not have extramarital 
relations and take steps in their employment policies to 
advance those views. In that case, employees would be unable to 
bring any kind of lawsuit against those companies in Federal 
court or using Federal laws.
    Mr. Cummings. Do you think that is fair?
    Ms. Franke. I do not think that's fair.
    Mr. Cummings. Do you think that is consistent with our 
Constitution?
    Ms. Franke. It is absolutely inconsistent with our 
Constitution.
    Mr. Cummings. And why is that?
    Ms. Franke. Besides the fact that it uses religion as a way 
to justify a second run if you will at a Supreme Court decision 
that some people disagreed with. It's unconstitutional on that 
level that the U.S. Supreme Court has the last word on what the 
Constitution means. But it also oversteps the Establishment 
Clause of the First Amendment and creates a violation of the 
prohibition of the State taking a position in religious matters 
or favoring particular religious views. The State is supposed 
to be neutral on these questions, not embrace particular 
religious views. So there are a number of reasons why I feel 
like the law is problematic.
    Mr. Cummings. I see my time is expired. Thank you very 
much.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Ohio, Mr. Jordan, 
for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chair.
    Mr. Cochran, thank you for being here. Thank you for your 
service, and thank you for your story. I have got two 
committees going on and so I wasn't able to listen to your 
testimony, but I read through your written testimony, 
overcoming poverty. Your faith inspired you to achieve the 
things that you did according to your testimony here. I just 
want to run back through a few things.
    You were appointed by the President to be U.S. fire 
administrator for the United States Fire Administration back in 
2009. Is that right?
    Mr. Cochran. That's correct, Mr. Jordan.
    Mr. Jordan. And that requires a confirmation hearing or 
some kind of hearing?
    Mr. Cochran. Yes, sir. It was a Senate confirmation hearing 
by the Homeland Security Committee.
    Mr. Jordan. And what was the vote there?
    Mr. Cochran. It was a unanimous vote.
    Mr. Jordan. All right. And then you did that for a while, 
then went back to the city of Atlanta to become fire chief, 
correct?
    Mr. Cochran. Yes, sir.
    Mr. Jordan. And according to your written testimony, ``I 
was nationally recognized,'' fire chief of the year in 2012?
    Mr. Cochran. That's correct, sir.
    Mr. Jordan. Anything in your background ever in your work 
history, your job evaluations, the things that happen each year 
when you are in this line of work, same kind of things that 
happen around here, ever have a negative on your employment 
record, anything like that?
    Mr. Cochran. No, sir. By the grace of God, it never--
there's never been any negative reflections throughout my 
career.
    Mr. Jordan. And then you wrote a book, right?
    Mr. Cochran. That's correct.
    Mr. Jordan. You wrote a book talking about how your faith 
helped you achieve the things that you were able to achieve and 
how it was such an inspiration and so helpful in your life 
overcoming some of the obstacles you had overcome, is that 
right?
    Mr. Cochran. That was part of it, yes, sir.
    Mr. Jordan. All right. And then what happened?
    Mr. Cochran. Well, a year after the book was published, it 
was discovered that I had written a small portion of the book 
about Biblical sexuality and marriage. Those few paragraphs 
were shared with the city of Atlanta, which subsequently led to 
my 30-day suspension without pay. During that 30-day 
suspension, the city launched an investigation.
    Mr. Jordan. What did the investigation find?
    Mr. Cochran. That I had never discriminated against anyone 
throughout my career and certainly not a member of the LGBT 
community.
    Mr. Jordan. And isn't it true in that investigation there 
was ``no interviewed witness could point to any specific 
instance in which any member of the organization had been 
treated unfairly by you,'' is that right?
    Mr. Cochran. That's correct, sir.
    Mr. Jordan. So they find out you write something, they 
suspend you, they do an investigation, and they find you did 
nothing wrong ----
    Mr. Cochran. That's correct.
    Mr. Jordan.--you got this outstanding record, confirmed by 
the U.S. Senate unanimously, President appoints you fire 
administrator, you are fire chief of the year in 2012, and then 
you got fired?
    Mr. Cochran. That's correct.
    Mr. Jordan. You got fired. Well, here is what Atlanta City 
Council member Alex Wan said, according to your testimony: ``I 
respect each individual's right to have their own thoughts, 
beliefs, and opinions, but when you are a city employee, those 
thoughts, beliefs, and opinions are different from the city's, 
you have to check them at the door.''
    Mr. Cochran. That's correct, sir.
    Mr. Jordan. I will tell you, Mr. Chairman, that is exactly 
why we have a First Amendment. You do not have to check your 
beliefs, right? That is what this country is about. When you 
talk about the First Amendment, you have to check your beliefs 
at the door? Are you kidding me? That is why this bill is so 
important. That is why Senator Lee and Representative Labrador 
have brought this bill and why it is so important because 
people like Mr. Cochran, they shouldn't have to check their 
beliefs at the door. Here is a guy who did nothing wrong, 
believed in strongly held religious beliefs that, as he says in 
his testimony, that Christians have held for a couple thousand 
years, and the city council member says you have to check them 
at the door. That is why we are having this hearing, that is 
why this legislation needs to pass, and that is why people like 
Mr. Cochran are heroes for his whole life experience but 
certainly for standing up for the fact that you don't have to 
check your religious beliefs at the door.
    And with that, Mr. Chairman, I would yield back.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentlewoman from New York, Mrs. 
Maloney, for 5 minutes.
    Mrs. Maloney. This law that they are discussing today would 
not apply to Mr. Cochran, but I would like to welcome my friend 
and colleague Congressman Frank back to the table. And I am 
concerned that 1 month, this is the anniversary, the month-long 
anniversary of the extreme slaughter of gay and lesbian men and 
women at a well-known nightclub in Orlando. And I personally 
find it shameful that we are holding this hearing that is 
looking at legislation that would further discriminate against 
the LGBT community on the anniversary of such a tragic, tragic 
event.
    And, Mr. Frank, as the former chairman of the Financial 
Services Committee, you spent a great deal of focus on housing 
policy. And I would like you to clear up for the committee how 
does this bill enable a not-for-profit housing organization to 
take Federal money and then discriminate against same-sex 
couples and deny them rental housing, deny them access when 
their dollars were literally spent to enable the program.
    Mr. Frank. Thank you, and it is good to be back with you 
Representative Maloney.
    Yes, I was frankly struck that Mr. Labrador went to such 
great pains to deny this. Ordinarily, when you're having a 
discussion and one of the people you disagree with denies 
something that is irrefutably true, that's a good sign. That's 
a weakness he's trying to argue away.
    And I've read the bill many times. And his--let me read 
from the bill. Page 3, lines 14 through 16, ``As used in 
subsection A, a discriminatory action means any action taken by 
the Federal Government to''--and then go to page 4, line 1--
``withhold, reduce, exclude, terminate, or otherwise made 
unavailable, deny any Federal grant, contract, subcontract.''
    And then it says ``This does not extend the protection to a 
Federal employee acting within the scope of employment or a 
Federal for-profit contractor.'' Mr. Labrador acknowledged 
that. He said, well, there aren't that many nonprofits that do 
the housing. Well, he's wrong about that factually. He hadn't 
specialized in that, and I understand that, but nonprofit 
housing groups, religious and others, are very active in 
doing--in building affordable housing, taking Federal money.
    So here's what this indisputably means. A nonprofit 
contractor takes money from the Federal Government paid for by 
everybody's taxes, builds rental housing, and then says no 
same-sex couple can live there, no same-sex married couple. 
That's just--I'm not making this up. I'm reading your bill. So 
don't tell me it's not there. No.
    If you want to protect Mr. Cochran from the city of 
Atlanta, which this bill doesn't, as has been pointed out, if 
you want to protect somebody at the Federal level, that's a 
different bill.
    You want to deal with tax exemption. Frankly, I understand 
the concern about tax exemption. This goes way beyond tax 
exemption. I'm willing to bet the reason is that then you'd 
lose jurisdiction in the Ways and Means Committee and going to 
have as much fun here.
    But the fact is that this bill--we're not talking about Mr. 
Cochran's right to say whatever he wants. By the way, I would 
agree that you should not be fired for your opinion if it's not 
relevant to your job. But under this bill, you could not say 
that someone couldn't work for the Equal Employment Opportunity 
Commission or the Justice Department's Civil Rights Division if 
they disagreed with this Federal constitutional right.
    But let me go back to this point. It's not disputable. A 
nonprofit contractor, and there are many of them who get tens 
and hundreds of millions of dollars to build rental affordable 
housing for low-income people, may under this bill deny that 
tenancy to the--to same-sex couples or, according to this bill, 
to people who are not married and are having sex. So if you're 
gay, lesbian, bisexual, or transgender, I guess you can move in 
there if you can prove you're celibate. That's an interesting 
form that I want to see people fill out.
    But on same-sex couples--again, I don't understand where 
you're saying it doesn't--it doesn't--show me how it doesn't.
    The last point I do want to note there's been references to 
the Judeo-Christian one man, one woman, and I may be one of the 
few representatives of the Judeo half of that here, the last 
time I was in temple there was a provision about hailing the 
fathers, Abraham, Isaac, and Jacob, but then they noted that 
there were four guys and--three guys and four women. So I 
checked with the rabbi. Well, it turned out that Abraham had a 
wife and also a concubine with whom he had a child. So much for 
extramarital relations. Isaac appeared to be pretty conforming, 
but Jacob wanted to marry this woman, and under the rules, then 
he had to marry her older sister first. So he married her older 
sister and then her.
    So let's be clear I think at least on the Judeo part the 
Bible does appear to say that you--marriages between one man 
and at least one woman.
    [Laughter.]
    Mr. Frank. Now, I do want to say I did appreciate the 
reference to Judeo-Christian. I know Mr. Walberg isn't here. He 
said this was a Christian nation. I appreciate your--some of 
you broadening it to let me in on the action.
    Mr. Meadows. I thank the gentleman for his testimony. I 
thank the gentlewoman. Her time is expired.
    Mr. Frank, just to make sure, you are reading from page 3 
of the newest bill?
    Mr. Frank. Yes, the current ----
    Mr. Meadows. So can you read paragraphs ----
    Mr. Frank. The amendment in the nature of a substitute ----
    Mr. Meadows. Yes, no--hold on. Hold on. I won't gavel you 
down. Can you read sentences 9 through 12 ----
    Mr. Frank. Yes.
    Mr. Meadows.--of your bill to make sure we are talking 
about the same one.
    Mr. Frank. I appreciate it. You know the thing where when 
you're losing limb, you reach for it? That's me and the gavel, 
so I apologize.
    Mr. Meadows. Yes. No, that's all right.
    Mr. Frank. On page 3--well, on lines 9 ----
    Mr. Meadows. Lines 9 through 12 to make sure we are talking 
about the same bill ----
    Mr. Frank. Right.
    Mr. Meadows.--as modified.
    Mr. Frank. Marriages should be recognized as a union of two 
individuals of the opposite sex or two individuals of the same 
sex ----
    Mr. Meadows. Okay.
    Mr. Frank.--for X amount--yes. So then you go to--I read 
14, 15 ----
    Mr. Meadows. That is fine. I just wanted to make sure ----
    Mr. Frank. No, it's the current draft.
    Mr. Meadows.--that is the most current version so ----
    Mr. Frank. Mr. Chairman ----
    Mr. Meadows.--the chair recognizes the gentleman from ----
    Mr. Frank. Mr. Chairman, can I just say one thing? I spent 
much too much time here to read the wrong bill. I've seen that 
result in disaster. This is the right bill.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Arizona for 5 
minutes.
    Mr. Gosar. Thank you, Mr. Chairman. I would like to thank 
all the witnesses for being here today as we work together to 
find ways to protect the fundamental rights guaranteed to all 
Americans under the Constitution.
    The First Amendment of the United States Constitution 
states that ``Congress shall make no law respecting an 
establishment of a religion or prohibiting the free exercise 
thereof.'' These two clauses are known as the Establishment 
Clause and the Free Exercise Clause respectively, and they lay 
out a clear fundamental right of the free exercise of religious 
faith for all Americans.
    The recent decision in Obergefell v. Hodges presents 
serious challenges for people of faith and those who believe 
marriage is between one man and one woman. I believe the 
Supreme Court got this decision wrong. The Justices and the 
majority allowed public opinion and their personal views rather 
than sound judicial interpretation to guide their decision.
    Chief Justice Roberts, John Roberts wrote, ``The majority's 
decision is an act of will, not legal judgment. The quote 
invalidates the marriage laws of more than half the States and 
orders the transformation of a social institution that has 
formed the basis of human society for millennia.''
    In an even more scathing statement, the last Justice 
Antonin Scalia opined ``The Supreme Court of the United States 
has descended from the disciplined legal reasonings of John 
Marshall and Joseph Story to the mystical aphorisms of the 
fortune cookie.''
    I am proud to be an original cosponsor of the First 
Amendment Defense Act introduced by my good friend Raul 
Labrador, and I commend his leadership. I encourage the House 
and this committee to pass this much-needed bill in a timely 
manner.
    Dr. Matthew Franck, with the barometer of public opinion 
and the opinion of the Court so varied and ever-evolving, some 
worry that important religious protection efforts like the 
First Amendment Defense Act are themselves contrary to the 
First Amendment. In your opinion, does FADA constrict or 
empower the First Amendment?
    Mr. Franck. On the contrary, Congressman, thank you for 
that question. FADA stands in a long tradition going back to 
the founding when militia acts exempted persons scrupulous of 
bearing arms for conscientious religious reasons. Of this 
Congress enacting laws that add layers to the protections, the 
bare-bones protection of the First Amendment, this is pro-First 
Amendment legislation that does not establish religion but 
bolsters the protection of the free exercise of religion.
    Mr. Gosar. Thank you. The Obergefell decision has alarmed 
supporters of traditional marriage, and rightfully so. Many 
proponents of same-sex marriage are not content with the ruling 
in this case. Their ultimate goal is to silence opposition to 
their position on marriage. They see the Supreme Court's ruling 
as justification for them to trample on the fundamental right 
of religious freedom that the First Amendment so persistently 
lays out.
    This was made evident almost immediately after the decision 
when opponents of traditional marriage began calling for 
churches and religious organizations that support traditional 
marriage to lose their tax-exempt status.
    Ms. Waggoner, in your testimony you mentioned the threat of 
Gordon College, its traditional view of marriage, and the 
threat to their accreditation as a result of their religious 
views. What sort of risks do other religious educational 
institutes face if protections like those in the First 
Amendment Defense Act are not enacted?
    Ms. Waggoner. Well, thank you for the question. I would 
like to move to admit my written statement to the record as 
well, which includes the Gordon College as an example.
    As I mentioned earlier, the American Bar Association is 
been investigating Brigham Young University related to their 
views on marriage. In addition to tax exemption, we have a 
number of religious organizations that face the threat of 
losing licensures, accreditations, and being inhibited in their 
operations simply because they want to live and work and 
operate consistent with their beliefs, foster agencies, 
adoption agencies.
    And I'd like to add that we want to provide diversity in 
the marketplace. A single mother who's looking to place a child 
should be able to place that child in the home that she would 
like and be able to choose from the option of ensuring that 
child has a mother and a father.
    So there are a number of property tax exemptions we've seen 
at issue at the State level, and then as well we're seeing more 
and more suggestions that the Federal Government should also be 
involved in the operation of religious organizations and in how 
they live out their faith.
    Mr. Gosar. Thank you very much. And that is exactly why it 
is critical that Congress pass the First Amendment Defense Act. 
This commonsense legislation will protect religious freedom 
from hardworking Americans and businesses by preventing 
discrimination by the Federal Government. Specifically, this 
important bill ensures that a presidential administration with 
differing religious views cannot evoke a nonprofit entity's 
tax-exempt status or prevent individuals and organizations from 
receiving a Federal contract, grant, or employment based on 
their fundamental beliefs.
    And with that, Chairman, I am going to yield back. Thank 
you.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentlewoman from the District of 
Columbia, Ms. Eleanor Holmes Norton, for 5 minutes.
    Ms. Norton. I thank the chairman for yielding to me.
    Mr. Chairman, let me say here that on behalf of the people 
I represent in the District of Columbia of every sexual 
orientation, I am deeply offended by this bill because it is 
not only an attack on our own LGBTQ community whose rights we 
have gone very far in protecting, but it is an attack on the 
sovereignty of the District of Columbia itself.
    This bill was actually withdrawn and rewritten in order to 
include the Nation's capital, and were it to pass, it would 
make the capital of this nation a discrimination zone for LGBTQ 
rights. Actually, this question is for Ms. Franke. And Mr. 
Frank lived in this city. It is for both of you.
    Already, I may note that a Federal court has found a bill 
much like this unconstitutional, a Mississippi Federal court, 
and I believe that is going to be the fate of this needless 
exercise if we still live in a constitutional democracy and one 
that does not allow discrimination laws to be turned on their 
heads.
    This new bill targets both the Federal and the D.C. 
government, and the way it gets the D.C. government is 
particularly offensive. In spite of the Home Rule Act of 1973, 
it declares the District of Columbia a colony of the Federal 
Government, indicating that we are a part of the Federal 
Government, an absurdity. In fact, this bill is more harmful to 
the District's LGBT community than the residents of the States 
because the District has a comprehensive antidiscrimination 
law, and the District's law prohibits discrimination in private 
and in the public sectors based, of course, on sexual 
orientation in the same manner that prohibits discrimination 
based on race and sex.
    So the bill not only prohibits the D.C. government from 
enforcing its LGBTQ antidiscrimination law but could, could 
prohibit private citizens from enforcing it, too, either by 
stripping courts in the District of their authority to impose 
penalties or by allowing defendants in private civil suits to 
actually raise a First Amendment defense as a defense due to 
discrimination. Where have we come to?
    So, Professor Franke first, please explain. Let's see how 
this would work. Please explain how a landlord or an employer 
or--I was once chair of the Equal Employment Opportunity 
Commission, which of course these provisions are virtually 
nullified by this bill--by a landlord or employer, I don't 
know, a restaurant owner in the District of Columbia who 
discriminates against an LGBTQ person could avoid liability in 
a private suit? How would that work?
    Ms. Franke. Thank you, Ms. Norton. The bill is curiously 
written in a number of places. It's vague in a number of 
places. I think the draftspersonship of it is questionable.
    Ms. Norton. Well, for one thing, I think it is in many ways 
void for vagueness as we say.
    Ms. Franke. Well, extramarital relations is itself an 
interesting category. But specifically in the definition 
section, section 6 that are contained on pages 7 and 8 of the 
current bill, the District of Columbia is defined first as part 
of the Federal Government and then lastly as a State. So you 
are right to note ----
    Ms. Norton. We very much are trying to become a State but 
we can't be both.
    Ms. Franke. I understand that. I understand that. But for 
the purposes of this bill, any nondiscrimination laws that have 
been enacted by the District of Columbia are treated as Federal 
law or actions of the Federal Government that would be 
prohibited from enforcement ----
    Ms. Norton. Let's suppose a private party were involved 
because our law ----
    Ms. Franke. Well, from the face of the bill it doesn't seem 
that the bill would prohibit or would reach actions between 
private parties. So say I wanted to rent an apartment from a 
private landlord and the landlord would only rent to people, 
two adults who had a marriage license ----
    Ms. Norton. So you could invoke the District's 
antidiscrimination law?
    Ms. Franke. I do know the District's antidiscrimination law 
----
    Ms. Norton. Despite the District being declared part of the 
Federal Government.
    Ms. Franke. Right. And part of why the bill in its 
vagueness is actually quite broad is that at least three 
circuits have interpreted similar--very--the exact same 
language under the Religious Freedom Restoration Act as denying 
Federal courts of jurisdiction over suits between two private 
parties. So the Federal Government is not affirmatively 
enforcing the law, whether it be the District of Columbia or, 
let's say, the Department of Justice. All the individuals are 
doing is availing themselves of Federal court in order to 
enforce rights that are created by law, but this could also 
apply to D.C. courts since the District of Columbia courts are 
treated as Federal courts under this statute--or under this 
bill.
    And so it wouldn't be unreasonable for future courts to 
interpret the language of FADA to also reach private suits 
between a private tenant, prospective tenant, and private 
landlord brought in the D.C. court to enforce a 
nondiscrimination--housing nondiscrimination provision under 
D.C. law, which would be treated as Federal law under the--
under FADA.
    If I might add, if the sponsors of this bill insist as they 
do that the law is not intended to overwrite civil rights law, 
then we should fold into the language of this bill the Do No 
Harm Act, which is also pending before this Congress, an act 
that says that religious liberty rights under RFRA and other 
provisions of religious liberty Federal law are not designed to 
override competing civil rights protections. We see none of 
that language in this law, none of that language in this law as 
it's currently drafted.
    Ms. Norton. And thus can expect confusion where such a 
bill--they will particularly never get it through the Senate. 
But if such a bill were passed, the kind of confusion you would 
see, especially in the District of Columbia, you have just laid 
out, and I thank you very much.
    Mr. Meadows. The gentlewoman's time is expired.
    The gentleman from Tennessee is recognized for 5 minutes.
    Mr. DesJarlais. Thank you, Mr. Chairman, and I thank the 
panel for being here today to discuss this important issue. 
Unfortunately, as a nation we have a long history of 
discrimination, and we have made a lot of mistakes. But we 
strive to correct those mistakes, and I think that the bill 
that we are debating and discussing today would go a long way 
to correct that.
    Anybody who didn't get a chance to listen to the testimony 
of Mr. Cochran should. It tells a great story, the story of 
shameful discrimination, a story of success, and then another 
story of failure. And, you know, I think that the First 
Amendment Defense Act is incredibly important because it helps 
preserve the constitutionally protected rights of religious 
freedom.
    I support this law, and I believe that it is imperative 
that we prevent the government from treating Americans unfairly 
because of their religious beliefs such as Mr. Cochran was and 
has been.
    This bill does not seek to take away rights from one group 
to confer them onto another, but protecting religious freedom 
is not a zero-sum game. This legislation is not designed to 
strip away rights from any group of people but rather to 
prevent the Federal Government from engaging in discriminating 
behavior. The text of the bill is crystal clear on this matter.
    I would like to commend Senator Lee for his work on this 
and also my friend Raul Labrador, who I find to be one of the 
most fair-minded, honest people that I have probably ever met, 
and I know that he has no intention of discriminating, only 
protecting everyone's rights equally.
    Another such person that I have had the privilege to serve 
with is Congressman Jim Jordan of Ohio, and with that, I would 
like to leave the balance of my time to him.
    Mr. Jordan. I appreciate the gentleman yielding.
    I just wanted to follow up with Chief Cochran again. When 
you were dismissed--again, I want to go back to the statement 
made by the city council member Mr. Wan. He said you have to 
``check your beliefs at the door.'' I think the First Amendment 
says, no, you don't.
    But it looks like you actually did, right? When they 
investigated you, they found no discrimination. They could find 
no witnesses that said you ever did anything wrong in how you 
handled your operation at the department, is that accurate?
    Mr. Cochran. That's accurate. I just--as an American and as 
a person of faith, I believe that our country has provided an 
opportunity for us to live out our faith and have our jobs at 
the same time. In the fire service I believe it's a special 
calling on a person's life to do what we do for a living. Based 
upon the fact that what the fire service does for its 
communities is rooted in our Constitution, and there's a clause 
in the preamble of the United States of America that is very 
fitting for the American fire service, in fact, all public 
safety agencies, where it says ``ensure domestic tranquility.'' 
And in the fire service all men and women are called to ensure 
domestic tranquility.
    And on that basis, anyone who believes in that calling on 
their life, it's very easy to develop a doctrine whereby we all 
have a consensus agreement on how we should be towards one 
another and how we should be towards any people group within 
the scope of our community.
    So the Atlanta Fire Rescue doctrine that I continue to talk 
about developed a vision statement based upon all the--input 
from all the people groups on a strategic planning team that 
was developed when I took office. Two of those members happened 
to be members of the LGBT community that was a part of that 
process. We also developed a mission statement, and we 
developed core values that any firefighter under any 
demographic should actually embrace. One of those core values 
was we committed to have an -ism-free environment at work, 
which meant that all of us have an obligation to ensure that 
there's no racism, sexism, nepotism, or any other -ism that 
would interfere with our duty to one another ----
    Mr. Jordan. I think everyone needs to understand what 
happened here.
    Mr. Cochran. Yes.
    Mr. Jordan. The city council says you have to check your 
beliefs at the door. The First Amendment says you do not. But 
you in fact it didn't do anything wrong in your employment, and 
you actually went further. You developed a policy working with 
people of different beliefs in your department to come up with 
this Atlanta Fire Rescue doctrine.
    Mr. Cochran. Yes.
    Mr. Jordan. And still--so understand again, check your 
beliefs at the door; no, the First Amendment says you don't 
have to do that; you didn't do anything to proselytize, you 
didn't do any of that; everyone interviewed said no wrong 
conduct here at all; and you went the extra step of developing 
a doctrine that says we are going to be inclusive, and still 
they terminated your employment because something you believed 
and wrote outside your responsibilities as fire chief and you 
were fired for that.
    Mr. Cochran. Yes, sir.
    Mr. Jordan. If that doesn't underscore why we need this 
legislation, Mr. Chairman, I don't know what does.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Massachusetts, Mr. 
Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman, and welcome back, 
Barney. Good to see you again.
    Before Senator Lee and Representative Labrador left, they 
were emphatic in asking us all to read the bill. And like Ms. 
Franke, it is my job and I think all of our jobs to read these 
bills closely and oftentimes repeatedly. I know that 
Congressman Frank did that as a chairman, as a Member of 
Congress here quite well during his time.
    So let's go right to this bill. This was only an eight-
pager, so if you are sitting at home, this is a pretty easy 
bill to read, straightforward. I usually don't get hung up on 
precatory language, but in section 2--it has findings here--
section 2, paragraph 6. I am going to read this.
    It says, ``In a pluralistic society in which people of good 
faith hold more than one view of marriage, it is possible for 
the government to recognize same-sex marriage, as required by 
the United States Supreme Court, without forcing a person with 
a sincerely held religious belief or moral conviction to the 
contrary to conform.'' Basically, what that is is an opt-out 
provision for a constitutional right. It basically says even 
though the United States Supreme Court says this is a right, we 
are going to recognize same-sex marriage, this bill basically 
says that people get to opt out. They get to opt out.
    However, if you go back to the Constitution and you read 
the 14th Amendment and the Fifth Amendment, if equal protection 
means equal protection, then you can't have people opting out 
of constitutional rights that are guaranteed and reinforced by 
the United States Supreme Court.
    And so this bill in its own way is at war with itself, with 
its own premise that even though there is a constitutional 
right, people can ignore it, people can opt out. That is a 
fundamental flaw in this bill.
    Let's go to some of the other attestations that have been 
made here today, that this bill doesn't affect any other 
Federal right or law. If you just go to section 3, the first 
sentence, it says ``In general, notwithstanding any other 
provision of law.'' So what it does, it establishes the primacy 
of this legislation over every other Federal law.
    Now, in another section that goes back to--and that 
includes any other Federal law, so FMLA, The Affordable Care 
Act, OSHA, EPA, the Federal Labor Standards Act, the Federal 
housing statutes that Mr. Frank talked about before, those are 
all impacted here, the Civil Rights Act as well. It basically 
requires this law to have primacy over all of those other laws, 
so it is flatly--the text of it is not consistent with the 
allegations of colleagues, Mr. Labrador and Senator Lee.
    It does provide some language here that points to this 
issue. It says ``under rules of construction,'' section 5, here 
is what it says: It says ``No preemption, repeal, or narrow 
construction - nothing in this act shall be construed to 
preempt State law or repeal Federal law''--and here is the 
catch--``that is equally or more protective of free exercise of 
religious belief and moral conviction.'' So if there is a 
Federal law out there that is more protective of religious 
freedoms, that law can stand. All other laws are subsidiary to 
this law.
    And that is the problem. It creates a primacy that someone 
with a firm religious or moral belief--and morals change; those 
are very subjective, the sense of right and wrong--it allows an 
individual person to basically opt out, again, of those 
constitutional rights that are recognized and upheld by the 
Supreme Court and embedded in our Constitution.
    Let me ask, Ms. Franke, you have read this bill. Am I wrong 
in pointing to the text of this legislation?
    Ms. Franke. You're absolutely right. You're absolutely 
right. And I would give you a parallel example. Many people in 
this country hold their Second Amendment rights dearly, see 
them as fundamental, the right to bear arms, the right to carry 
weapons. And many people in this country, not only Quakers but 
others, who have religious and moral beliefs of pacifism ----
    Mr. Lynch. Right.
    Ms. Franke.--who would not want someone walking into their 
school, in--if they walked into my classroom with a weapon, I 
would have a moral--deeply held moral opposition to that.
    Mr. Lynch. Right.
    Ms. Franke. And by the language of this bill, I am allowed 
to opt out of what is pretty clear constitutional doctrine 
around the right to carry weapons ----
    Mr. Lynch. Right.
    Ms. Franke.--the right to bear arms.
    Mr. Lynch. Right.
    Ms. Franke. Right? So we're opening a door here ----
    Mr. Lynch. Well, I do want to point out, though, that for 
the cases Mr. Frank pointed out before where someone, a 
conscientious objector in a military situation may try to opt 
out from a provision that is mandatory and requires them to 
carry arms, same-sex marriage is not mandatory.
    Ms. Franke. Not yet, no ----
    Mr. Lynch. No.
    Ms. Franke.--thankfully.
    Mr. Lynch. Well, I see my time is almost expired. Mr. 
Frank, do you have anything you want to add here?
    Mr. Meadows. The gentleman's time actually has long 
expired, and so we will let you briefly answer this question.
    Mr. Frank. Okay.
    Mr. Meadows. It was a good try, Mr. Lynch.
    Mr. Lynch. Well, thank you.
    Mr. Frank. One other point and that is--and you pointed out 
the limitation on the anti-preemption. It allows everything 
else to be preempted. But there was one argument that said, oh, 
you don't have to worry about housing discrimination because 
these other laws would stay in effect. Well, as you pointed 
out, they probably wouldn't, but the point is this: There are 
no Federal laws at this point that explicitly protect you in a 
statutory way because you're in a same-sex marriage, nor in 
many States is there any protection at all. So the only 
protection, the only rule that says that you have to treat 
same-sex married couples fairly and the availability of housing 
would be a Federal executive policy, which can be overridden. 
So, again, the argument about housing is just--is not an 
argument. It's clearly not.
    Mr. Meadows. Okay. I thank the gentleman.
    Mr. Lynch. I want to thank the chairman for his indulgence, 
and I yield back the balance of my time.
    Mr. Meadows. I thank the gentleman from Massachusetts.
    The chair recognizes the gentleman from Georgia, Mr. Hice, 
for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    And, Mr. Obergefell, I want to thank you for your 
testimony. I want you to know sincerely that I am sorry for 
your loss, and as a pastor I say my prayers for comfort for you 
as you continue working through this.
    And, you know, I believe that we are created in the image 
of God, and every life deserves to be respected. And although 
we may have disagreements, we are here in America where we are 
able to have those disagreements here in a civil kind of way. 
But I sincerely want you to know prayers are with you as you 
work through this.
    Chief Cochran, I want to go back to you, fired by the city 
of Atlanta very clearly because of your religious beliefs. And, 
in fact, Mr. Chairman, many of us in the Georgia delegation 
wrote a letter of support on behalf of Chief Cochran to Atlanta 
Mayor Kasim Reed, and I would like to have that letter 
submitted to the record.
    Mr. Meadows. Without objection.
    Mr. Hice. Chief Cochran, the mayor of Atlanta stated, in 
essence, that he was disturbed by the sentiments of your book 
about marriage, is that correct?
    Mr. Cochran. Yes, sir.
    Mr. Hice. And, in fact, you were banned from having that 
book distributed in the city, is that correct?
    Mr. Cochran. Yes, after it came out that I had written a 
book, from that point forward, yes, sir.
    Mr. Hice. Right. That is what I mean. And you personally 
had to undergo sensitivity training?
    Mr. Cochran. It was a condition of my return to work, but 
regretfully, even though the investigation exonerated me of any 
discrimination, I did not have the privilege of resuming my 
employment as the fire chief of the city of Atlanta.
    Mr. Hice. So you would have had to undergo sensitivity 
training had you gone back?
    Mr. Cochran. That's correct.
    Mr. Hice. And yet, as you just referred to again, you never 
had any accusations or any record whatsoever of discrimination. 
In fact, you put forward, as you describe, in essence, an 
antidiscrimination panel?
    Mr. Cochran. Yes, sir. In fact, because of the 
discrimination that I experienced as a firefighter coming 
through the ranks in the city of Shreveport, I just made a vow 
that that could not happen and would not happen under my watch, 
and I did everything I could to prevent it from happening.
    Mr. Hice. Did you put forth that panel as far as you 
appointing the individuals who served?
    Mr. Cochran. Yes. It was a consensus development of the 
group. Because I was the new guy in town, I didn't know any of 
the members of the department. I relied on the counsel of the 
deputy chiefs and assistant chiefs to assemble a group of men 
and women that represented every people group within the 
department, and we did that.
    Mr. Hice. And so there were people in that group who did 
not agree with your position on marriage?
    Mr. Cochran. Yes, sir.
    Mr. Hice. But they were still on the panel that you put 
together?
    Mr. Cochran. That's correct.
    Mr. Hice. That speaks volumes as to your resistance to 
participating in discrimination. Do you believe that the mayor 
of the city of Atlanta discriminated against you?
    Mr. Cochran. Absolutely.
    Mr. Hice. So they did not express to you the same conduct 
that you had exhibited in your leadership?
    Mr. Cochran. That's correct.
    Mr. Hice. Do you believe that they discriminated 
specifically because of your religious beliefs?
    Mr. Cochran. They made it perfectly clear that the actions 
that were taken against me were based upon the expressions in 
my book that I had mentioned about marriage and Biblical 
sexuality.
    Mr. Hice. They certainly did, and the U.S. Commission on 
Civil Rights actually wrote about your case that it is 
remarkable to claim, as the city of Atlanta does, that 
religious beliefs are not a matter of public concern and 
therefore are unprotected by the First Amendment. It is 
stunning to me that we can have a State like Atlanta outrightly 
coming forth saying that religious liberties should not be 
protected under the First Amendment.
    And again, this underscores why we need the First Amendment 
Defense Act. You do not waive your First Amendment right just 
because you work for the government, nor do you waive your 
First Amendment right because you go to work or you go to a 
church or you are at a school or wherever it is. The First 
Amendment applies to every citizen of this country.
    Ms. Waggoner, let me come to you real quickly. The pendulum 
of discrimination obviously swings in both directions, and what 
we are seeing now is government itself doing the 
discrimination. Can you give us real briefly some examples of 
that?
    Ms. Waggoner. We have numerous cases at the State level 
where business owners, small business owners who hire LGBT 
people, serve LGBT people have declined to create art or to 
promote messages or celebrate and participate in same-sex 
ceremonies, and as a result, they're faced with the loss of 
everything they own. We have a number of religious 
organizations who their accreditation and licensure has been at 
issue, and we also know of the tax-exemption issues.
    If you would permit me, I would also like to address some 
of the misstatements as to what this law actually does. For 
example, the suggestion that employees under the penalty 
provision could somehow be penalized is simply not true. It 
does not allow termination of employees. It does not change 
existing law. The rights that you would have, you continue to 
have under Federal and State law.
    And more importantly, while we have cited different 
provisions that are preemptory language that is not a part of 
what this bill does, if you turn to section 3, discriminatory 
actions are defined explicitly. They're extremely narrow. They 
don't focus on other provisions of the law. They don't focus on 
housing or those types of things. They focus on accreditation, 
licensure, certification, funding, and government contracts, 
nothing more and nothing less. So again, these misstatements, I 
would encourage this committee to look at what the bill says. 
Don't engage in conjecture about it.
    And lastly, I would just add the Mississippi decision has 
been raised here. Mississippi's decision is a trial court 
decision that was based on a preliminary injunction that if 
that decision is upheld, every single--virtually every single 
accommodation we have provided in this nation would be 
eviscerated by that judge's ruling.
    We are confident it will be appealed and, although it 
didn't need to do this, FADA is very different from the 
Mississippi law because it covers all viewpoints. You can have 
a strongly held viewpoint in same-sex marriage or a strongly 
held viewpoint based on religious and moral convictions, on 
opposite-sex marriage, and both beliefs are protected. That is 
about tolerance. That's about diversity. That's about 
protecting both sides. So again, look at what the provisions of 
this bill does.
    And one last point if you wouldn't mind, Chief Cochran, if 
he had been in the Obama administration and this would have 
happened to him, there is no question FADA would protect him. 
Thank you.
    Mr. Hice. I thank the chairman. And I likewise just hope 
that this marriage question does not become a litmus test for 
functioning in American society. Thank you, sir.
    Mr. Meadows. I thank the gentleman. The gentleman's time is 
expired.
    The chair recognizes the gentleman from California, Mr. 
Lieu, for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chair.
    America is great because we are not a theocracy, and you 
have seen the dangers of theocracies today. Some of the most 
repressive regimes in the world are based on countries that 
have laws based on religion. The reason we don't do that in the 
United States is because our Founding Fathers were quite smart. 
They put in the First Amendment of the United States 
Constitution--and let's just read that First Amendment one more 
time. It says ``Congress shall make no law respecting an 
establishment of religion or prohibiting the free exercise 
thereof.''
    So the very first line in the First Amendment says 
``Congress shall make no law respecting an establishment of 
religion.'' That is why when Barney Frank took an oath of 
office to be a Member of Congress, and when members of this 
committee took an oath of office, we took an oath to the 
Constitution, not the Bible. Many of us did place our hand on 
the Bible when we took the oath of the Constitution, but it was 
not the other way around.
    And the way we have balanced religious liberties where we 
respect people of any religion, respect those who don't have 
any religion, is we let religions operate freely within their 
area. We even allow religions to discriminate within their 
sphere. We don't allow religion to impose their views on 
others.
    So, Ms. Franke, let me ask you--and by the way, I happen to 
be Catholic. The Catholic faith, by its very own policy, just 
flat-out discriminates against women, right, by saying women 
cannot be in any leadership position? You can't be Pope, you 
can't be a bishop, you can't be a priest, isn't that correct?
    Ms. Franke. Well, you're the Catholic. I assume that's 
correct, yes.
    Mr. Lieu. And yet we allow them to have a tax-exempt 
status, isn't that correct?
    Ms. Franke. We do, but the--well, I'll let you ----
    Mr. Lieu. Right. Islamic mosques, many of them separate men 
and women when they do their religious practices. We allow them 
to have their tax-exempt status, right?
    Ms. Franke. In some cases. It depends on each religious 
institution certainly, yes.
    Mr. Lieu. And our nation has taken this view that we are 
just going to allow religions to do whatever they want within 
their religion, to discriminate if they feel like it, to not 
discriminate. But when we talk about laws, they are secularly 
based, isn't that right, that we base our laws not on religion 
but on government officials, on Members of Congress, on the 
President?
    Ms. Franke. Yes, that's right.
    Mr. Lieu. So this bill to me is dangerous because it does 
exactly the opposite. For the first time it is actually taking 
one particular religious belief of one religion and elevating 
it to secular law. And to me the reason that that is so 
dangerous is that is now leading us down the road to theocracy.
    And I so want to make this point that--I have read the 
bill, and it is not just that this bill is leading us on the 
road to theocracy. The way it is written is just crazy. I 
respect the authors of the bill. I don't believe they are 
crazy; they are reasonable people. But there is just some crazy 
language in this bill.
    So one of them is, guess what, this bill applies to 
extramarital relations. So under this bill folks who are having 
an affair get to be discriminated against under this bill for 
it to become law. That potentially applies to premarital sex, 
right, because it is not defined, so if you are not in a 
marriage and you have sex, under this bill you get to be 
discriminated against.
    We are here in the 21st century. I hope the millennials are 
watching us. This is crazy language. This is a crazy bill, 
taking really, really religious beliefs and elevating it to 
secular law, never been done in the history of the United 
States, never should it be done.
    And I am going to give my colleague Barney Frank some time 
to ----
    Mr. Frank. Thank you. And I do reiterate if people want to 
talk about the Bible, Abraham would be excluded there. He did 
have a child with Hagar outside of his marriage.
    But I want to respond to Ms. Waggoner who reads the bill--
yes, you read the bill; you don't read every other line. You 
read every line. Here's what it says on page 4. She says, oh, 
it's got nothing to do with housing; it's just about 
certification and licensing. She forgot a few lines. At the top 
of page 4, ``withhold, reduce, exclude, terminate, or otherwise 
make unavailable or deny any Federal grant,'' any Federal 
grant, contract, subcontract, et cetera. Then you get to 
license and certification. That's what housing is about. You 
say it doesn't deal with housing. Of course it does. You build 
housing in part with Federal grants and Federal contracts.
    So I'm just astounded that you would say, oh, it's just 
about certification and licensing. You skipped the first two--
the two lines just before that. And it is indisputable that 
under this bill, a nonprofit could get a Federal contract or 
grant to build affordable rental housing and say if you have 
had extramarital relations or if you are in a same-sex 
marriage, you're not eligible for the tenancy, and the Federal 
Government could not refuse to allow you to get that contract 
under those grounds. It's not just about certification. Again, 
don't just read the bill; read every line.
    Mr. Meadows. The gentleman's time is expired.
    Mr. Lieu. Thank you.
    Mr. Meadows. I thank the gentleman.
    Mr. Lieu. I yield back.
    Mr. Meadows. The chairman recognizes the gentleman from 
South Carolina, Mr. Mulvaney, for 5 minutes.
    Mr. Mulvaney. Thank you, Mr. Chairman.
    Before we have a legal conversation--I hope we get a chance 
to do that--I just want to ask maybe a commonsense question or 
a gut question.
    Mr. Frank. It's supposed to be.
    Mr. Mulvaney. And I have heard Mr. Cochran's story for the 
first time. It's very compelling. To summarize what I 
understand happened is that you were dismissed from your job 
even though you didn't discriminate against anybody because in 
a book you quoted lines out of Scripture? Is that fair, sir?
    Mr. Cochran. That's correct, sir.
    Mr. Mulvaney. Does anybody think that is right, anybody on 
the panel? No? Everybody is saying no. Okay.
    I understand the criticisms today of the bill. In fact, one 
of the questions I am going to ask Mr. Lee is why he wrote it 
the way that he did it because I think you are right. I think 
the bill as written would not protect Mr. Cochran. But if we 
all agree that what happened to Mr. Cochran is wrong, and I 
happen to agree with that and apparently everybody else does 
here--in fact, I would ask everybody here if they think that 
was right--how do we fix that? Well, Mr. Frank, you know I am 
going to give you a chance to talk as you and I are friends and 
I am going to do it, but before we move on, I want to ask a 
couple other questions and then we figure out how to fix this 
because that is something that needs to be fixed.
    The next question is this: If there is a Jewish school that 
happens to teach traditional marriage, is there anybody here 
who thinks they should lose their tax-exempt status?
    No one is saying yes. I assume everybody says no. Someone 
in the back says no. We will talk to them later.
    Ms. Franke. It depends.
    Mr. Mulvaney. And I'm going to come to that in the second. 
And I'll ask the same questions about Catholic churches. Should 
they lose their tax-exempt status if they won't marry gay 
couples? I think the answer is no. Does anyone want to take the 
position that they should? And none of them have and I want to 
get to that.
    Lastly, I am going to ask the same thing about--pick a 
list--Islamic charities that choose not to serve homosexual 
couples, I don't think anybody would take the position here 
that any of those entities should lose their tax-exempt status. 
Mr. Frank, I will start with you because I know you are 
interested in doing this, but ----
    Mr. Frank. They shouldn't lose their tax-exempt status but 
neither should they be able to go for a Federal grant as they 
would be under this bill. And among the religions that ----
    Mr. Mulvaney. Yes, but you don't get to have it both ways. 
And what you said before was that you didn't want to have your 
tax money used to do things that you can't participate in.
    Mr. Frank. Right.
    Mr. Mulvaney. There are a lot of people who think that the 
fact that the Catholic Church receives tax-exempt status--one 
of them is sitting in this room--that that is using their tax 
money ----
    Mr. Frank. Well, I mean, that is fine ----
    Mr. Mulvaney.--but you are now allowed to avail yourself of 
that.
    Mr. Frank. No--well, one, I would--frankly, I've been told 
that the church is interested in conversions, and my 
understanding is that I'd probably be welcome. But the second 
point is this--and not only would I be welcome, the Pope 
wouldn't judge me. But the other point, though, is this. I do 
guard the station. I hope you're not, Representative Mulvaney, 
equating a tax exemption with a Federal grant. I think a tax 
exemption is a lower level of scrutiny that applies for a tax 
exemption than to getting a Federal grant. The distinction I 
would make--unless you're equating the two and you're saying 
that anybody eligible for an exemption should be eligible for a 
grant ----
    Mr. Mulvaney. And what I am saying to you, Mr. Frank, is 
that I think there are people who disagree with me, by the way, 
who might be of a different mindset on this who don't 
differentiate between the two.
    Mr. Frank. Well, I--look, there are people who think Elvis 
is alive, but I don't think that's accurate. I don't think 
that's the way the government works.
    Mr. Mulvaney. But to Mr. Lee's ----
    Mr. Frank. None of us act on that basis.
    Mr. Mulvaney. But to Mr. Lee's point again, I am sorry that 
he left because I think Mr. Cummings is right. We would have 
liked to have them stay, but I am going to get a chance to ask 
them this. He pointed to an exchange during Mr. Obergefell's 
campaign--during the case in front of the Supreme Court where 
it seems as if that question is very much open.
    Mr. Frank. And if you want to make ----
    Mr. Mulvaney. Look ----
    Mr. Frank. The bill ----
    Mr. Mulvaney. There are certain things this administration 
have said that said they are open-minded to withdrawing ----
    Mr. Frank. I understand that ----
    Mr. Mulvaney.--the tax-exempt status. So go ahead.
    Mr. Frank. Divide it up. This tax exemption, there's a 
question of firing. By the way, I don't think the fire chief 
should have been fired, but neither do I think that the Equal 
Opportunity Employment Commission shouldn't be able to inquire 
into it. And my difference with my formal colleague Mr. Jordan 
is this. This is not a bill to protect First Amendment rights. 
That's--that Atlanta City Council--every other First Amendment 
right except this one would be checked. So how do you protect 
them? You pass a bill that says no one can be fired because of 
his or her political or religious opinion that is wholly 
irrelevant to the job, and you don't single out one particular 
aspect of one particular religion. Separately--you deal with 
tax exemption separately.
    But we've always held a different view. Richard Nixon 
started this when he said you're going to not get a Federal 
contract if you don't engage in even affirmative action in the 
construction area, but--you could have your tax exemption but 
you couldn't get the Federal grant.
    So I think there are three levels. There's whether or not 
you can speak out. There's tax exemption. Yes, you should be 
protected in your expression of opinion, religious or not, as 
long as it's irrelevant to your job.
    Mr. Mulvaney. Well, there is a lawsuit brought to deny the 
Jewish school, the Catholic Church, or the Islamic charity 
their tax-exempt status. I hope they play that.
    Now, Ms. Franke--by the way, does anybody else think it is 
----
    Mr. Meadows. The gentleman's time is expired.
    Mr. Mulvaney. Oh, I am sorry.
    Mr. Meadows. Last question, we have been a little generous, 
so last question very quickly.
    Mr. Mulvaney. No, I ----
    Mr. Frank. Mr. Chairman, if I was here I would yield time 
because I used up his time.
    Mr. Mulvaney. I could do it in just a couple ----
    Mr. Meadows. You have used up a lot of people's time but 
that is all right.
    Mr. Mulvaney. It is not the first time that Mr. Frank has 
taken my time at one of these hearings, but I always enjoy the 
back-and-forth. Thank you all for participating. Ms. Franke, I 
did want you to follow up--maybe somebody else will have a 
chance to do it--when you said that under certain circumstances 
you might want to deprive those religious institutions of their 
tax-exempt status. Maybe you will get a chance to follow 
through on that with somebody else.
    So I thank the chairman. I thank the panel.
    Mr. Meadows. All right. I thank the gentleman. I am going 
to recognize one other--there has actually been a vote called 
on the Floor, a motion to adjourn, which should be one vote. So 
I am going to recognize the gentlewoman from New Jersey, Mrs. 
Watson Coleman, for 5 minutes, and then we are going to take a 
slight recess.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. And thank you 
to all of you.
    And, Mr. Cochran, I don't understand why you are here today 
because I don't understand how your case is involved, but I 
wish you the best of luck because it seems like something went 
wrong there.
    Mr. Cochran. Thank you.
    Mrs. Watson Coleman. Ms. Columbia Law Professor Franke, I 
have a couple of questions for you. Number one, under this 
proposal, is it conceivable that a woman, a single woman with a 
child could be denied housing?
    Ms. Franke. That can happen every day. The question is 
whether she can bring a complaint against her landlord before a 
Federal ----
    Mrs. Watson Coleman. Under this ----
    Ms. Franke. Yes.
    Mrs. Watson Coleman.--proposal?
    Ms. Franke. She would have a defense under FADA, the 
landlord would in those cases of rendering Federal law on this 
issue on enforceable, and the District of Columbia law as well.
    Mrs. Watson Coleman. So under this proposal could an 
employee technically refuse to allow a member of--an employee 
from a same-sex marriage or a heterosexual marriage if you are 
opposed to heterosexual marriage to not be able to do family 
leave for a sick person?
    Ms. Franke. Yes.
    Mrs. Watson Coleman. Could an employer potentially not hire 
and/or fire someone because of their marital status?
    Ms. Franke. Actually, marital status discrimination is not 
currently prohibited under Federal law, but it is under D.C. 
law, and since it's treated as Federal law, that would be the 
case.
    Mrs. Watson Coleman. Okay. And the same thing goes for 
public accommodations to any of those issues as well, right?
    Ms. Franke. Yes.
    Mrs. Watson Coleman. All right. Is it not hypocritical to 
include the notion that you can apply these principles that are 
outlined in this proposal to heterosexual couples and unmarried 
heterosexual couples? Is not more than a facade?
    Ms. Franke. Well, if I gave this legislation as a final 
exam question in law--at Columbia Law School, this would 
probably--it might be a failing exam. The idea that there are 
people who believe that marriage should be limited only to two 
people of the same sex, only limited to them, if they believed 
that out of religious or deep moral conviction, it's an 
interesting idea, but I'm unaware of anybody that holds those 
views. Perhaps other members of the panel do.
    Mrs. Watson Coleman. Okay. Thank you. You have sort of 
answered my question.
    Ms. Franke. Yes.
    Mrs. Watson Coleman. I think that I just need to share 
this. First of all, I find it offensive that any day of the 
year that this proposal would be raised before us with all the 
important issues that are confronting us. I think that this is 
some of the worst form of discrimination that I have ever seen. 
And I believe that while my colleague referred to it as crazy 
language, I consider it more hurtful than anything, and that we 
are considering this one month after what happened in Orlando, 
Florida. And this evening there is going to be a vigil. It is 
just another element of disrespect and disregard.
    And I for one am sickened by having to come to OGR and to 
have these kinds of hearings that don't move our society one 
bit closer to unifying and having respect and understanding of 
our individual and collective rights. And my right can't 
infringe upon your right and your right can't infringe upon my 
right. And my Republican majority colleagues just can't seem to 
get that, and that is abhorrent and that is a disregard for the 
job that they have been asked to do here.
    Thank you. I yield back.
    Mr. Meadows. I thank the gentlewoman.
    We will go ahead and recess. And just for planning 
purposes, it will be a short recess so hopefully no more than 5 
to 10 minutes, but subject to the call of the chair.
    So the committee stands in recess.
    [Recess.]
    Mr. Meadows. The Committee on Oversight and Government 
Reform will be called back into session. I appreciate all of 
your flexibility with regards to the vote on the House Floor. I 
know other members are headed back this way, so I am going to 
go ahead and recognize the gentleman from Wisconsin, Mr. 
Grothman, for 5 minutes.
    Mr. Grothman. Well, I was going to ask Mr. Cochran some 
questions, but we are going to have to put Ms. Waggoner on the 
spot. I assume, you know, from your biography you have 
represented a lot of people, maybe primarily but not 
exclusively of the Christian faith. Why don't you in general 
give--you may be familiar--I don't know what your personal 
religious background is, but you could in general just give us 
a Christian perspective or the belief of, say, many mainline 
Christian churches, be it Baptist, Assembly of God, WELS 
Lutheran on this issue.
    Ms. Waggoner. Well, I can't speak to all faiths, but I can 
tell you that I know in terms of the Abrahamic religious 
tradition that marriage is between a man and a woman. The Holy 
Scriptures contain many different provisions that essentially 
say that and that God created man and woman to partner together 
and in sexual complementary to create human beings in his 
image. And so the purpose of marriage in religion is to 
perpetuate the human race and to honor the dignity and equality 
of all human beings and create families that will be in the 
image of God and promote human flourishing in that.
    Mr. Grothman. Okay. I don't know. Do you have children?
    Ms. Waggoner. I do.
    Mr. Grothman. Good. Congratulations.
    Ms. Waggoner. My daughter's here today.
    Mr. Grothman. Good. Good, good, good. Your mom is doing a 
good job. Do you then want--do you hope your children would--
you are raising your children hoping they will have the same 
beliefs that you do? Is that part of the Christian faith that 
you want to raise your children to also share in that faith, 
share in those beliefs?
    Ms. Waggoner. It would very much be my hope and my priority 
that my children choose to walk in the faith that we have 
chosen and that we are a part of. At the same time, though, 
what I so much appreciate about the Christian faith is that 
it's a matter of free will, and they have that choice and need 
to make their--that decision on their own.
    Mr. Grothman. Okay. I will give you a general question 
because they want me to give you a general question. Could you 
give us an oversight of what this bill does and why it is 
important to you?
    Ms. Waggoner. Well, the bill is important because what 
we're seeing at the State level and also beginning to see at 
the Federal level is that those who have the politically 
unpopular view now that marriage is between a man and a woman 
are being silenced, banished, and punished, including 
threatened with jail time potentially, threatened with 
crippling fines, and forced to go out of their business and not 
earn a livelihood simply because they will not promote a 
message about same-sex marriage that violates their religious 
convictions or they won't actually participate in a same-sex 
ceremony. There is no case in this nation that we're aware of 
where anyone has been denied services simply because someone 
expressed a sexual preference. And instead what we have seen is 
truly the bullying and the penalization of those who just seek 
to live peacefully and work peacefully consistent with their 
beliefs.
    Mr. Grothman. Okay. Just going through some of the papers 
we got to prepare today, apparently one issue out there is 
there are adoption agencies, and apparently some adoption 
agencies don't like to place children with same-sex couples. If 
you were ever in a position to put a child up for adoption, 
would you prefer that your child not be placed with a same-sex 
couple?
    Ms. Waggoner. Well, I don't know that my personal beliefs 
would be particularly relevant ----
    Mr. Grothman. Well, I will put it this way. Would a whole 
lot of people with mainstream Christian beliefs not want their 
child placed with a same-sex couple?
    Ms. Waggoner. I don't know what a whole lot of people would 
do, but I know that in a diverse and tolerant society, they 
should be able to have that choice. And that's what's so great 
about the American system. It's also important to know that 
there are a number of religiously based adoption agencies and 
foster care agencies that it's not simply that they don't want 
to, it's that they don't believe it's in the child best 
interest because children do best with mothers and fathers. 
They have the right to know and be loved by their mothers and 
their fathers.
    Mr. Grothman. Are we in danger in this country without a 
bill similar to this of creating a situation which if you want 
to put your child up for adoption, you will not be able to 
assure that your child--if you go through a mainstream adoption 
agency, you know--you will not be able to assure that your 
child will be raised by a mother and father?
    Ms. Waggoner. Well, we don't even have to speak in future 
tense because that's already happened. We can look in D.C. and 
Illinois and in other States where Catholic charities and other 
religiously based adoption agencies has been forced to close 
their doors. They've lost their licenses simply because they 
are a religious organization that wants to operate consistent 
with their religious beliefs on marriage.
    Mr. Grothman. Okay. I don't believe we can have the 
government establish a religion, but isn't it true--you are a 
lawyer--that our forefathers anticipated America being a 
country in which you would be free to practice your Christian 
belief and free to raise your children in that belief?
    Ms. Waggoner. Absolutely. And we know that throughout our 
history in America our Founding Fathers, as well as those in 
Congress and others, have successfully provided religious 
accommodations, balanced religious liberty interests against 
other important State interests, interests that include 
national security and education and health care. We can do this 
and there's no reason that we shouldn't here.
    Mr. Grothman. Are we headed in this country towards a place 
in which the Federal Government and State governments are 
hostile to parents who want to raise their children in a 
Christian faith?
    Mr. Meadows. The gentleman's time is expired, but you can 
answer the question.
    Ms. Waggoner. There's no question that there is government 
hostility to those who believe that marriage is between a man 
and a woman. There's no question that they're being silenced, 
that they're being banished from the marketplace simply because 
of their views.
    Mr. Meadows. I thank the gentleman. I thank you.
    The chair recognizes the gentleman from Oklahoma, Mr. 
Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman. And thank you, panel, 
for being here today and for your testimonies.
    I am not certain whether FADA is the best means for 
protecting what is constitutionally guaranteed or not. I think 
it needs more deliberation. But one thing I am certain of, Mr. 
Chairman, is that in our current day the greatest assault on 
the free exercise of religion is being perpetuated by those 
most responsible to protect it, those who uphold the law. 
Instead of upholding the free exercise clause of the First 
Amendment, we have now seen this body continue its assault on 
faith in America.
    It is not enough to level accusations of injustice. Many 
will not be satisfied until their assaults of intolerance on 
people of faith in this country has produced an elimination of 
God in public life in America. We are accused of hatred, called 
out as shameful, and enjoined to use the whole Constitution to 
support an opposing view that embodies behavior more as an 
outcome that not only violates our conscience but have been 
prohibited under the laws of nature and nature's God.
    In the last 50 years we have seen the Constitution used by 
ideologues to kill American children in the womb, eliminate 
family structure, elevate behavior over belief, redefine 
marriage, and assault into silence and in action any who oppose 
them. Not satisfied, we now see them without rest on their 
quest to eliminate free exercise of faith in the United States.
    Do we really want a nation without God? They would call it 
progress, yet our conscience knows different. The apostle Paul 
explained why when he said--and I am exercising my First 
Amendment right to state this--``For the wrath of God is 
revealed from Heaven against all ungodliness and 
unrighteousness of men who suppress the truth in 
unrighteousness because what may be made known of God is 
manifest in them for God has shown it to them. For since the 
creation of the world, His invisible attributes are clearly 
seen, being understood by the things that are made, even His 
eternal power and Godhead so that they are without excuse 
because although they knew God, they did not glorify Him as 
God, nor were thankful but became futile in their thoughts and 
their foolish hearts were darkened. Professing themselves to be 
wise, they became fools. Therefore, God also gave them up to 
uncleanness in the lust of their hearts to dishonor their 
bodies among themselves, who exchanged the truth of God for the 
lie and worshiped and served the creature rather than the 
Creator.''
    The Creator. Our nation has always been anchored in the 
Creator from its inception, throughout its history. God has 
been the foundation of our republic, as seen in the sweeping 
lines in the Declaration of Independence. None of the founders 
of this country believed that a governmental connection to 
religion was an evil in itself. They oppose the establishment 
of a national religion because it could prohibit free exercise 
of faith, but that faith would and should be freely exercised.
    The same day the Bill of Rights was introduced, July 13, 
1787, this Congress also introduced the Northwest Ordinance to 
lay guidelines and instruction on new territory acquired by a 
future United States. Article 3 of that ordinance stated, 
``Religion, morality, and knowledge being necessary to good 
government and happiness of mankind, schools and the means of 
education shall be forever encouraged.''
    Forever be encouraged, Mr. Chairman. Some in this body 
today would believe forever stops in 2016 and should have 
stopped much sooner. They claim that Congress grants these 
inalienable rights and use the powers of government without the 
consent of the governed to regulate and diminish faith and 
eliminate it from public life.
    In 1798, in response to the claim that Congress could 
regulate the First Amendment freedoms without abridging them, 
James Madison condemned it saying, ``The liberty of conscience 
and the freedom of the press were completely exempted from all 
congressional authority whatever.''
    Mr. Chairman, forever be encouraged. Is that where we stand 
today? Shall religious freedom, the hallmark of Columbia's 
shores, continue to be forever encouraged? Or do we who are so 
humbly honored to serve in these chambers now step aside as we 
see the indispensible supports of our religion and morality 
knocked from under our foundation.
    Mr. Chairman, I can't be silent. Since I was 18, I have 
pledged and defended the Constitution of the United States of 
this great republic. I have been moved by conscience and 
dictates to speak out against the coercion of people of faith 
who are being discriminated against because they hold to the 
laws of nature and nature's God. Our institutions, once based 
on the Creator of life, have now appointed themselves to usurp 
the authority of God, who is the author of life, marriage, and 
family.
    The most elemental sovereign unit, the family, has been 
destroyed by our foolish decisions. We are told instead by 
those of us sworn to uphold the law that murder is not murder, 
marriage is not marriage, family is not family. We have allowed 
constitutional constructs to kill a child and call it a choice. 
We have seen discreet behaviors and private sexual preferences 
now promoted to public display while what is constitutionally 
guaranteed to be able to express, religion, is now publicly 
prohibited. This nation at its highest level, it seems, has 
taken a position against God.
    And so I close with this, Mr. Chairman, is it possible to 
form a more perfect union without God? Can we establish justice 
absent the giver of law? Can domestic tranquility be ensured 
when we abandon His precepts? Can we provide for a common 
defense absent a mighty fortress and an unfailing bulwark? How 
do we promote the general welfare when every American is now 
seemingly unanchored, adrift to do what seems right in his own 
eyes? Do we suppose we can secure the blessings of liberty 
without Him? Can we acknowledge our prosperity and expect to 
obtain His blessing without acknowledging His existence?
    And so, Mr. Chairman, like our forebears, I will not be 
silent while it is still legal to not be. My faith directs that 
I act with love and civility and gentlemanly manner. My 
optimism is secured by eternal hope and everlasting truth. My 
conscience speaks to God's eternal being so that I am without 
excuse, but His love and mercy cannot be separated from those 
who answer His call.
    Mr. Chairman, I yield back my time.
    Mr. Meadows. The gentleman's time is expired.
    The chair recognizes himself for a series of questions.
    And, Dr. Franck, let me come to you. Specifically, a lot 
has been said here today about penalties and what may happen 
and what may not happen. So as it relates to this particular 
piece of legislation, can you speak to the penalty clause and 
what it is and what it is not?
    Mr. Franck. Yes. Thank you, Mr. Chairman. I regret that 
more Democratic members haven't rejoined us because I think 
that some of them were misreading the text of the bill. I'm 
willing to forgive them for that error in light of the fact 
that the Columbia law professor to my right seems also to be 
misreading the bill and perhaps misleading the members.
    The word ``penalty'' appears one time in FADA as now 
written, as proposed by Congressman Labrador, and that's in 
section 3 on page--yes on page 3, line 18, in context that 
refers only to tax penalties under the Internal Revenue Code. 
So let me go back to the top, the notwithstanding clause. 
``Notwithstanding any other provision of law,'' what, ``the 
Federal Government shall not take any discriminatory action 
against a person.'' And discriminatory action is defined 
several lines later. The very first definition of 
discriminatory action is a reference to unfavorable tax 
treatment because of one's religious or moral convictions about 
marriage.
    Mr. Meadows. So what you are saying is ----
    Mr. Franck. It is the only place where penalty is ----
    Mr. Meadows.--is that if they violate it, the IRS cannot 
come in and say you owe a penalty ----
    Mr. Franck. Right.
    Mr. Meadows.--and they cannot charge a penalty as 
punishment, is ----
    Mr. Franck. It's unfavorable tax treatment alone. And what 
this means is that all the worries I've been hearing today 
about FADA undoing civil rights protection, the Family and 
Medical Leave Act, the Fair Housing Act, title VII, title IX, 
it's all misplaced.
    Mr. Meadows. So what you are saying ----
    Mr. Franck. And it ----
    Mr. Meadows.--is the text of that bill would not support 
any undoing of the Fair Housing Act or the Civil Rights Act or 
anything like that? Ms. Waggoner, would you agree with that?
    Ms. Waggoner. Absolutely.
    Mr. Meadows. So if that is the case and that is obviously 
something of great debate, if you believed, Ms. Waggoner, that 
this particular bill would undo the Civil Rights Act or the 
Fair Housing Act, would you oppose this bill?
    Ms. Waggoner. I would need to look at what the bill 
actually does, but what I can say ----
    Mr. Meadows. Well, let's put it in context. Let me just 
tell you from my standpoint, if this bill undermines those 
foundational things that have served us to protect civil 
rights, I will oppose this bill.
    Ms. Waggoner. I would agree with you very much so.
    Mr. Meadows. Okay. And so I guess what I am here to say is, 
Dr. Franck, if you are saying that this penalty would not 
actually be a penalty to say that we could discriminate, is 
that what you are saying? I don't want to put words in your 
mouth.
    Mr. Franck. No, that is what I'm saying. If the Federal 
Government is obliged under Civil Rights, Family Medical Leave 
Act, Fair Housing Act, to assess a penalty against persons 
engaging in unlawful discrimination, FADA does not let those 
people off the hook. It simply doesn't.
    Mr. Meadows. So those penalties would stay in place under 
existing law, and this bill does not do anything to undermine 
that? Is that your sworn testimony?
    Mr. Franck. Yes.
    Mr. Meadows. Okay. Ms. Waggoner, would you agree with that?
    Ms. Waggoner. Yes, I would.
    Mr. Meadows. Okay. Ms. Franke, I have found that your 
testimony was very engaging, and I shared that with you 
personally. And here is where I would like to work with you 
knowing that we probably come from two different ideological 
perspectives on this particular issue. However, maybe at the 
core of that foundation is both of us in the belief that 
discrimination is something that is abhorrent and something 
that should not be tolerated. And would you agree that 
discrimination is something that is abhorrent and shouldn't be 
tolerated?
    Ms. Franke. I think I can agree with that.
    Mr. Meadows. Well, I thought you might. And so in doing 
that, here is what I would like for all of us to do is let's 
look at the text of this bill. And, Ms. Franke, you have said 
that your Columbia law students would have gotten an F if they 
had drafted it this way, so we will tell Ledge Counsel that 
they just got an F at Columbia Law School.
    Ms. Franke. There's a procedure, though, for reopening a 
grade.
    Mr. Meadows. Okay. Well, let's look at the procedure for 
reopening a grade because here is what I would like to do is we 
have had very robust conversations that disagree. Now, what my 
concern is is that we are at times missing each other based on 
misinformation on what the bill is, on what the bill might do, 
and on what the bill does do. And so I think it is important 
for us to really start to narrowly focus and start to say the 
narrowly focused portions of this, what does it protect and 
what does it not protect because I have heard a number of my 
colleagues on both sides of this particular seat suggest things 
that may not be entirely accurate from the context of what is 
there.
    I think we can all agree, Chief Cochran, that the kind of 
discrimination that you had to face is not only wrong, but it 
goes against our constitutional founding principles. And even 
Mr. Frank, who may not agree with you on some of your 
particular positions, agrees that the way that you were treated 
was incorrect. Isn't that correct, Mr. Frank?
    Mr. Frank. It is, and I wish we had a bill to protect him.
    Mr. Meadows. Well, in doing that we can certainly look at a 
bill, but what we have is something far greater than a bill. We 
have the Constitution. In the Constitution, the same 
Constitution that Ms. Frankie will teach her law students to 
make sure that she upholds, is there to do it.
    Now, here is the interesting thing. When jurisprudence 
starts to come in and starts to look at our founding principles 
from a constitutional standpoint, then it is important for us 
to act. Then, it is important for us to clarify. Then, it is 
important for the legislative body to say this is what we will 
tolerate, this is what we believe is appropriate, and indeed 
that, I can tell you in talking to my good friends Senator Lee 
and Raul Labrador, that is their intent is not to discriminate. 
In fact, if anything, it is to stop discrimination. And that 
needs to be the underlying principle here today in all of the 
argument that goes back and forth.
    So, Ms. Waggoner, do I have your commitment that you are 
willing to work with this committee and indeed members of this 
committee perhaps individually to help us look at the language 
and make sure that it does not indirectly or directly violate 
the Fair Housing Act or the Civil Rights Act or anything like 
that? Will you be willing to do that?
    Ms. Waggoner. We would very much appreciate that 
opportunity.
    Mr. Meadows. Well, you have a standing invitation, and my 
schedule is open to you.
    Ms. Frankie, do I have your commitment to do the same with 
me as we would sit down, without any cameras, without any 
reporters, to try to work through this to make sure that those 
protections are there?
    Ms. Franke. Absolutely.
    Mr. Meadows. Thank you, Ms. Franke. Dr. Franck, do I have 
your same assurances where you can look at this and say here is 
how we are going to work together to make sure that all rights 
are protected? Will you be willing to work with us?
    Mr. Franck. Absolutely.
    Mr. Meadows. Well, I thank each of you.
    The gentleman from Georgia has come in, and so the chair 
recognizes the gentleman from Georgia, Mr. Carter, for 5 
minutes.
    Mr. Carter. Thank you, Mr. Chairman, and thank all of you 
for being here.
    Chief Cochran, thank you especially. As a fellow Georgian, 
I have followed your case since its beginning, and it has 
saddened me. I will tell you that. It saddened me to hear that 
your 34-year career during which you were nationally recognized 
as fire chief of the year came to an abrupt end at the hands of 
the city of Atlanta, all because you expressed your religious 
beliefs.
    After you were suspended but before you were terminated, 
the city of Atlanta determined that you had not discriminated 
against anyone for any reason. None of the witnesses 
interviewed by the city could point to a single instance in 
which any member of any organization was treated unfairly by 
you, is that correct?
    Mr. Cochran. That's correct, sir.
    Mr. Carter. Yet, because the city of Atlanta, the mayor of 
Atlanta, and city council had already publicly disagreed with 
your religious beliefs before the investigation, you were 
terminated despite no evidence that you discriminated against 
anyone, is that correct?
    Mr. Cochran. That's correct, sir.
    Mr. Carter. Do you believe that if you had published your 
book while you were employed at the Federal level as a fire 
administrator for the U.S. Fire Administration that you would 
have been fired from that position for your beliefs?
    Mr. Cochran. It's hard to say at that time whether or not I 
would have, but I believe, based upon the tremendous radical 
shift in the atmosphere in the United States of America on this 
issue of marriage and sexuality, where I, the U.S. fire 
administrator, in these times, I would certainly be terminated 
from employment.
    It is my desire to see legislation at the Federal, State, 
and local level that will protect any American, in spite of or 
regardless of their belief about marriage and sexuality, be 
protected from adverse consequences for actually expressing 
that or living it out in their personal lives.
    Mr. Carter. So, Chief Cochran, you believe that the First 
Amendment Defense Act will protect Federal employees from 
suffering the same punishment that you suffered, you, the 
national fire chief of the year suffered?
    Mr. Cochran. Yes, sir, I believe that it will, and I think 
it will also provide a provision whereby people who share 
different beliefs from the government on marriage and sexuality 
will not be withheld from employment from the Federal 
Government as well.
    Mr. Carter. Mr. Chairman, opponents of this First Amendment 
Defense Act would have us believe that this is a solution in 
search of a problem and that this doesn't happen at the Federal 
level. But here we have an example, here we have an example of 
an award-winning public servant who served both at the State 
and the Federal level who was fired without evidence of any 
wrong doing other than elected officials didn't like his 
religious beliefs. That is it. Simply, they did not like his 
religious beliefs, no other reason whatsoever, no indication, 
no proof of any kind of discrimination by anyone at any level.
    You know, if someone can get fired by one of the largest 
cities in the country for freely expressing their religion, 
which is a constitutionally protected right, then it is only a 
matter of time before this happens at the Federal level. And it 
is my belief that this is the reason why we need this 
legislation, to protect anyone, anyone who expresses their 
beliefs.
    Chief Cochran, do you agree with that?
    Mr. Cochran. I absolutely agree with you, sir.
    Mr. Carter. Chief, as I said, I have followed your case 
closely. Two years ago at this time I was in State Senate of 
Georgia and I followed it very closely. In fact, you may not 
know, but we both share the same condo complex in Atlanta, and 
you are a neighbor of mine. And I am proud to call your 
neighbor, and I am proud because you are a fine American.
    Thank you, Mr. Chairman. I yield back.
    Mr. Walker. [Presiding] Thank you, Mr. Carter.
    The chair recognizes himself for 5 minutes.
    Thank you again for all the panel in being here today. We 
appreciate your time. I do have a couple of questions that I 
wanted to come through just in case we have, yes, about 4 or 5 
minutes left. Let me start with Ms. Waggoner. One of the 
questions that I would like to hear from you if possible if you 
have time to answer it, if the government was to force faith 
communities to violate their freedom to believe or to 
discontinue community services, what would our local 
communities lose?
    Ms. Waggoner. They would lose all kinds of humanitarian and 
good works. In many instances we have a number of religiously 
oriented foster care and adoption agencies. We have Catholic 
hospitals. We have Islamic hunger programs. We have Jewish food 
banks. Much of the humanitarian work that is done in the United 
States is done by those who are motivated by faith. And there's 
a mistaken notion that they would choose to forgo their 
religious beliefs to stay open. We've seen that in other cases 
as well.
    Mr. Walker. I would certainly concur. I have had the 
opportunity over the years of serving in the inner cities of 
places like Cleveland and New York and Baltimore, and there is 
no match for what faith-based organizations can do, 
specifically in some of these tough-to-reach places. These are 
the people that hold the hands of the sickest, that reach out.
    I am reminded in Moore, Oklahoma, you may have remembered 
the tornadoes that viciously swept through there. I was 
compelled to remember the newscast. CBS and NBC did a joint 
newscast where Harry Smith and Brian Williams both. And I 
remember the quote by Harry Smith. It says, ``As you and I have 
seen it in so many different places in this country, if you are 
waiting for the government, you are going to be in for an awful 
long wait.'' However, he said this: ``The Baptist men, they are 
going to get it done tomorrow.''
    And I think about that as an over-context to make sure that 
as we look at legislation that we are protecting those who are 
working behind the scenes in places where their names aren't 
recognized or in headlines or in the press, but they are doing 
the work because they are driven by their faith to do so.''
    Chief Cochran, you make us proud. You have survived 
discrimination both in the civil rights arena, as well as any 
political correctness arena. The comments that we have heard 
today about checking your beliefs at the door, you have stood 
up. And to use a passage that you might be familiar with that I 
am reminded of, I believe it was Paul that wrote, ``Alexander 
the coppersmith did me much harm, but for what they meant for 
harm, God meant for good.'' And I think your life is a story 
because you have kept your faith, and you have kept the right 
spirit. And now I believe that you are being celebrated because 
of that.
    My question to Representative Frank would be this: Do you 
condone the harassment made by the city of Atlanta against 
Chief Cochran?
    Mr. Frank. Well, I know you've kind of been in and out, but 
I've said several times that I don't.
    Mr. Walker. Okay.
    Mr. Frank. I did also note that this a bill, of course, 
would do nothing to prevent that. And the bill, if I can use 
all these terms, it's over-inclusive and under-inclusive. It 
protects only one set of statements, a particular religious 
belief about a particular issue. I think the bill ought to be 
to give protection to any statement of any political or 
religious belief as long as it's not job-relevant. In his case, 
it wasn't job-relevant. If it was for the Justice Department's 
Civil Rights Division, it would be. So I think a law that 
protects any statement of religious or political belief that's 
irrelevant to the job duties should be passed.
    Mr. Walker. How about for elected office?
    Mr. Frank. Oh, I do not believe that we interfere with what 
the voters can do. I'm against any--as far as elected office, 
in fact, there was a case you will remember when a Member of 
this body from South Carolina shouted something out, and the 
President and the House--unwisely in my judgment--voted to 
criticize him. I refused to vote on that. I think the 
relationship between elected officials and his or her 
constituents is paramount, and nobody else should intrude into 
that.
    Mr. Walker. That was before I arrived, but I do remember 
that making news.
    My follow-up question, Mr. Frank, is that I know that there 
have been some comments that you have made in the past, former 
President Mitt Romney about his particular views on traditional 
marriage, and I think that you have found him offensive. Is 
that to a place there that you would say that these people who 
hold religious belief in traditional marriage should not be 
protected?
    Mr. Frank. Of course not. In fact--I--again, you're--when a 
preacher from Kansas, from Westboro went and started harassing 
or picketing funerals of servicemen because he said God was 
punishing America because it was too pro-gay, and this House 
voted 400 to 3 to legally prohibit him from doing so, even when 
he wasn't intruding on the grounds, I was one of the three and 
the Supreme Court said we were right. No, I am in favor of any 
opinion anywhere. I am not in favor of having money go to 
someone.
    And by the way, this does not protect the fair housing law, 
notwithstanding any other provision of law. I am not for being 
taxed so people can build housing from which people like me are 
excluded.
    Mr. Walker. There may be some debate on that. And I want to 
conclude with my final question here to Dr. Franck if I could, 
please. Will FADA authorize employees of the Federal Government 
to refuse to provide services to same-sex couples and/or 
eliminate any antidiscrimination protections for LGBT employees 
of such contractors?
    Mr. Franck. No, not on any fair reading of the--of FADA 
that I can see. And if I may, former Congressman Frank has now 
twice referred to persons working in the Civil Right Division 
of the Justice Department earlier. He also referred to persons 
working in the EEOC. And if I understood him correctly, he 
regarded people's opinions on marriage there as so 
fundamentally job-related that he would let them go even if 
they did not act on those beliefs in their official capacity in 
their job performance.
    So perhaps he would like to clarify or quality ----
    Mr. Frank. May I?
    Mr. Franck.--what he said, and I invite him to do so, but 
it sounded like--because I'm sure there are people--persons who 
believe in conjugal marriage between one man and one woman 
working today in the Civil Rights Division and the EEOC, and it 
sounded like he'd like them to lose their job.
    Mr. Frank. May I respond?
    Mr. Walker. Just 30 seconds.
    Mr. Frank. Yeah. Just as I would say if you say you'd 
believe in racial discrimination or religious discrimination, 
any time you are at an agency that's in charge of protecting 
and enforcing constitutional rights and you express your view 
that that constitutional right should not exist and it's 
damaging to the country, then you should not be in the 
enforcement position there.
    Mr. Walker. Thank you, Representative Frank. Well, let me 
say thank you to all of our witnesses for their appearance here 
today. It has been a little bit of a long hearing, but you have 
been patient, and we appreciate your testimony.
    If there is no other further business, without objection, 
the committee stands adjourned.
    [Whereupon, at 1:27 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
